<html>
<title> - FAST AND FURIOUS, SIX YEARS LATER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   FAST AND FURIOUS, SIX YEARS LATER

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2017

                               __________

                           Serial No. 115-47

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
              
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-505 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6403140b24071117100c0108144a070b094a">[email&#160;protected]</a>              
              
              
              
              
              
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John P. Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                    William McKenna General Counsel
                 Stephen Castor, Deputy General Counsel
                    Tristan Leavitt, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapal
                 
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2017.....................................     1

                               WITNESSES

The Hon. Charles E. Grassley, Chairman, Committee on the 
  Judiciary, U.S. Senate
    Oral Statement...............................................     6
    Written Statement............................................    11
Josephine Terry, Mother of Late Border Patrol Agent Brian Terry
    Oral Statement...............................................    25
    Written Statement............................................    27
Robert Heyer, Terry Family Spokesman, Cousin of Late Border 
  Patrol Agent Brian Terry
    Oral Statement...............................................    31
    Written Statement............................................    36
John Dodson, Special Agent, Phoenix Field Division, Bureau of 
  Alcohol, Tobacco, Firearms and Explosive
    Oral Statement...............................................    45
    Written Statement............................................    47

                               
                               APPENDIX

Letter of May 30, 2017, to Attorney General Sessions submitted by 
  Mr. Lynch......................................................    74

 
                   FAST AND FURIOUS, SIX YEARS LATER

                              ----------                              


                        Wednesday, June 7, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:30 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Issa, Jordan, Amash, 
Gosar, Gowdy, Massie, Meadows, DeSantis, Ross, Walker, Blum, 
Hice, Russell, Grothman, Hurd, Palmer, Mitchell, Maloney, 
Norton, Lynch, Cooper, Connolly, Kelly, Plaskett, 
Krishnamoorthi, Raskin, Welch, and DeSaulnier.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. And without objection, 
the chair is authorized to declare a recess at any time.
    We thank you all for being here. It is an important hearing 
on a topic that has gone on for far too long. We had the death 
of one of our bravest, one of our best in Brian Terry, and this 
government, as I have said many, many times before, is 
different than most other governments in the world and that is 
we are self-critical. We do look hard at things that have 
happened and that have gone wrong to make sure that the truth 
is exposed and that we don't ever make these mistakes and 
errors again.
    We are also, as a committee and staff, issuing a--I think 
it's a 259-page report. I want to thank a few people as we get 
into this. I want to thank John Skladany, Steve Castor. Steve 
has spent an exceptional amount of time on this, as well as 
Tristan Leavitt, who is sitting here to my left, Cordell Hull, 
Jack Thorlin, Natalie Turner, Mike Howell, and Rebecca Edgar, a 
lot of people on our staff that spend countless hours working 
on these topics, and we thank them for their preparation of 
this report that we are issuing today.
    We are here to check in on one of the longest-running 
congressional oversight and investigative matters of our time, 
an operation called Operation Fast and Furious. Congress is now 
in its seventh year in search of a complete accounting of the 
facts relating to the reckless gun trafficking operation that 
left border patrol agent Brian Terry murdered. This happened on 
December 14, 2010, and we still don't have all the answers. At 
the scene of Agent Terry's murder in 2010, two modified AK-47-
type assault rifles were recovered. The weapons were traced to 
Operation Fast and Furious.
    The strategy of this failed operation, encouraged by the 
Department of Justice, was to focus the resources of the Bureau 
of Alcohol, Tobacco and Firearms on Mexican drug cartels rather 
than low-level straw gun purchasers. As such, a program was 
born that allowed straw purchasers to supply Mexican drug 
cartels with firearms. Purchasing a firearm for someone other 
than yourself is illegal. The shocking end-game of this 
misguided plan was to identify cartel members after guns 
recovered at crime scenes traced back to their original place 
of purchase.
    Absent from this strategy was any modicum of public safety. 
ATF failed in its mission to protect our communities from 
violent criminals and the illegal use and trafficking of 
firearms. Let's keep in mind, these were nearly 2,000 weapons 
that they knowingly and willingly let out onto the streets.
    Agent Terry's family, who is here and will participate in 
the second panel, should not have to wait more than six years 
for answers and accountability. We are grateful they are here, 
and we look forward to hearing their story again in the second 
panel.
    Our committee began its work in February of 2011 under the 
leadership of Chairman Darrell Issa after partnering with 
Senator Grassley to evaluate unfathomable whistleblower 
accounts and documents coming out of ATF in Phoenix, Arizona. 
Both Chairman Grassley and Chairman Issa helped lead the 
charge, and we're very grateful for their efforts and look 
forward to hearing more from both today.
    Several Phoenix-based ATF special agents expressed 
skepticism and disbelief about the program as it went against 
everything they were trained to do and violated their law 
enforcement oath to protect the public. Special Agent John 
Dodson, who is with us today, was one of those agents. Without 
Agent Dodson's determination to do the right thing, surely many 
more thousands of firearms would have walked, leading to 
additional deaths. He should be thanked by the Department of 
Justice, the ATF, and by all of us.
    But as Agent Dodson will tell us today a different story, 
however, happened. His employer was not treating him as a hero. 
As the committee with responsibility for oversight of Federal 
whistleblower policy, we must continue to shine the light on 
John Dodson's story.
    The congressional investigation also led to a well-
chronicled impasse between two equal branches of government. In 
June 2012, the House of Representatives held former Attorney 
General Eric Holder in contempt for failing to turn over 
documents relating to the investigation. The House successfully 
compelled the production of many of these documents in Federal 
court. In two separate judicial victories, the committee 
received approximately 80,000 pages of new documents from the 
Department of Justice. And again, the Department of Justice 
didn't want Congress to see them and certainly didn't want the 
public to see them.
    However, it should not take years and endless, expensive 
litigation for the executive branch to cooperate with proper 
congressional oversight. We still require additional documents, 
and litigation is ongoing as the Department of Justice 
continues its unprecedented stonewalling of Congress and the 
Terry family. And I am sorry to report, under the Trump 
administration, this has not changed. This has not changed.
    In previous testimony before Congress, former Attorney 
General Holder committed to getting the Terry Family the 
answers and explanations they needed. But when the television 
lights went off, that did not happen. In fact, the opposite 
happened. The Obama administration Justice Department went so 
far as to litigate against the Terry family. The Justice 
Department wrote briefs and argued in Federal court against the 
family's efforts to intervene as a crime victim in the Fast and 
Furious prosecutions. It is a travesty of justice.
    We look forward to hearing from Senator Grassley, Special 
Agent Dodson, and members of Brian Terry's family, including 
his mother and his cousin Robert Heyer. We look forward to 
hearing their accounts and perspectives from a vantage point of 
six years later.
    Mr. Chaffetz. But right now, we are pleased to have serving 
as the ranking member today Mr. Lynch, the gentleman from 
Massachusetts, and will yield as much time as he needs.
    Mr. Lynch, you are now recognized.
    Mr. Lynch. Thank you, Mr. Chairman.
    And, Senator Grassley, you honor us by your presence here 
this morning. I would like to begin by acknowledging the life 
and courageous service of Border Patrol Agent Brian Terry, who 
served as a United States Marine, a police officer in his home 
State of Michigan, and an agent of U.S. Customs and Border 
Protection. His life was tragically cut short when he was 
murdered in a gunfight near the Mexican border in 2010. Agent 
Terry's family is here today. Mrs. Terry and Mr. Heyer, we are 
deeply sorry for your loss.
    Ranking Member Cummings very much wanted to be here today, 
but as many of you know, he is recuperating from heart surgery. 
But he wanted me to extend his apologies for not being her 
personally today. He was able to speak with Agent Terry's 
family last month, and he offered to see if there was anything 
more we could here on this committee to obtain additional 
information about what happened nearly seven years ago.
    As part of that effort, Ranking Member Cummings wrote a 
letter to Attorney General Jeff Sessions on May 30 asking 
whether the Department of Justice still had the same policy 
about producing documents to Congress that it had had under the 
Obama administration. Years ago, as the chairman has laid out, 
this committee had a high-profile disagreement with the Justice 
Department. Although it produced a great deal of information to 
the committee, it withheld certain information based on the 
argument that the Federal agencies have a so-called 
deliberative process privilege. That issue was indeed 
litigated, and the court found that agencies do in fact have 
this privilege but that there were some additional documents 
that were outside of the privilege that should be produced even 
when applying that principle.
    Following the court's order, the Department provided the 
committee with access to thousands of pages of additional 
documents last summer. In his letter to Attorney General 
Sessions, Ranking Member Cummings again asked whether the 
Department policy on these documents is the same as it was 
under the Obama administration. He asked whether Attorney 
General Sessions is now asserting the same privilege that 
Attorney General Holder and the Obama administration did, 
whether Attorney General Sessions has changed these policies to 
provide additional documents to the committee.
    Ranking Member Cummings shared his letter with Agent 
Terry's family members, and, Mr. Chairman, I ask unanimous 
consent that we place this May 30 letter from Mr. Cummings to 
Attorney General Sessions into the official record for today's 
hearing.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Lynch. Unfortunately, the Department responded on 
Monday that it will not provide us with answers to the ranking 
member's questions, it will not explain whether the Attorney 
General is changing the Department's policies or legal 
interpretations, and it declined to send anyone here today to 
testify about these questions. Instead, the Department informed 
us that it is continuing to discuss these matters with the 
chairman. Because Democrats have not been invited to 
participate in those discussions, we have no idea whether 
Attorney General will let us have any of these remaining 
documents at this point.
    This also raises a second problem. Last week, the White 
House directed a new policy that Federal agencies should ignore 
requests for information from Members of the committee other 
than Republican committee chairmen. This new policy relies on 
an opinion from the Department of Justice Office of Legal 
Counsel, which claims that the authority to conduct oversight, 
quote, ``may be exercised only by each House of Congress or 
under existing delegations by committee and subcommittees or 
their chairman and that individual Members of Congress do not 
have the authority to conduct oversight in the absence of a 
special delegation by a full House committee or subcommittee.''
    That analysis is indeed wrong, it flies in the face of 
Supreme Court precedent, and it is a mistake. The great irony 
here is that we have the Honorable Senator Grassley testifying 
before us today, and he was responsible, I believe, for first 
bringing Operation Fast and Furious to light in 2011. And at 
the time, Senator Grassley was not a committee chairman. He was 
in the minority. But we congratulated him on his diligence and 
hard work.
    The Trump administration should acknowledge and respect the 
constitutional oversight role of every Member of Congress, 
regardless of party, because we do our oversight in service of 
the American people, not on behalf of political parties like 
the Terry family.
    As Senator Grassley wrote in a letter back in 2009 about 
the role of the minority, quote, ``As a senior Member of the 
United States Senate and the ranking member of the Finance 
Committee, I have a duty under the Constitution to conduct 
oversight into the actions of executive branch agencies.'' 
Senator Grassley was right.
    Finally, I want to address an issue that was raised by the 
Terry family when Americans are killed in the line of duty, as 
Agent Terry was. Their family members deserve our support. And 
today, I'm asking that the Department of Justice review its 
policies and procedures for supporting the families of those 
who lose their lives in service to our country. I hope the 
chairman and other members of the committee will join me in 
that request, and by working to ensure that the victims' 
families are supported, we can honor Agent Terry's legacy.
    Thank you, Mr. Chairman, and I yield back the balance of 
our time.
    Chairman Chaffetz. I thank the gentleman. I would simply 
note that I actually concur with your notion that the--if the 
Department of Justice is taking a position that they should not 
respond but only respond to chairmen, I think that is a 
dangerous and unsustainable policy. And so I just want you to 
know that I concur with you.
    I want members to know we will hold the record open for 
five legislative days for any members who would like to submit 
a written statement.
    We would now like to recognize our distinguished witness on 
the first panel, the chairman of the Senate Judiciary 
Committee. But in order to properly introduce him, I would like 
to recognize a colleague, the gentleman from Iowa, Mr. Blum, as 
well as Mr. Issa after that.
    Mr. Blum, you are now recognized.
    Mr. Blum. Thank you, Mr. Chairman.
    It is my pleasure today to introduce my friend and fellow 
Iowan, Senator Charles Grassley. The chairman of the Senate 
Judiciary Committee, Senator Grassley recently began serving 
his seventh term in the United States Senate. The former 
chairman of the Senate Finance Committee, Senator Grassley also 
served in the Iowa House and the U.S. House before coming to 
the Senate.
    Senator Grassley has been an important partner to this 
committee in Fast and Furious investigation, and we are 
privileged to have him join us today.
    As co-chairman of the Senate Whistleblower Protection 
Caucus, he is a tireless advocate for whistleblowers, including 
Special Agent John Dodson. This investigation has shown the 
important role whistleblowers play in enabling Congress to 
conduct oversight of the executive branch.
    After unsuccessfully raising his concerns within the 
Department of Justice, Special Agent Dodson contacted Senator 
Grassley's office in 2011. In January of that year, Senator 
Grassley wrote a letter to the ATF regarding the allegations 
and later partnered with this committee to better understand 
the Fast and Furious operation and to determine if there was 
any wrongdoing, abuse of authority, or failed supervision.
    During that investigation, the Justice Department falsely 
denied that law enforcement officers had allowed straw 
purchasers to buy firearms illegally and trafficking them 
without being apprehended, directly contradicting the claims of 
whistleblowers. The Department of Justice was later forced to 
withdraw their denial.
    Armed with information provided by whistleblowers, Senator 
Grassley and this committee have continued to press Department 
of Justice for documents related to Fast and Furious, resorting 
to the court system when necessary.
    Senator, I thank you for being with us today. We appreciate 
your hard work on this matter and are looking forward to your 
testimony today. Thank you for being here. And I yield back.
    Chairman Chaffetz. Thank you. I will now recognize Mr. 
Issa.
    Mr. Issa. Thank you. And thank you, Mr. Chairman, for this 
special honor. I will be brief.
    Chuck, thank you. You know, many on this dais here were not 
in Congress when you began your effort six-plus years ago, and 
apparently, many don't understand that you were in the minority 
and they were seeking not to, in fact, cooperate. And it was 
through a partnership with your staff, which were excellent and 
added so much to this committee, with your use of--although 
minority--your voting capability, my ability to write 
subpoenas, and then the leadership's willingness to go all the 
way to contempt that we are here today with what we know, 
knowing that we don't know everything.
    So I join with the chairman and today's ranking member in 
saying, yes, I believe the minority should be heard and should 
be reasonably answered. I would say, though, that our great 
partnership, one that I will cherish, started with their 
assumption that they would give you a lie as a letter and then 
for 10 dogged months stick by that lie. And only with your 
tenacity were we able to get beyond that. So I am just happy to 
be able to thank you today, Senator.
    Chairman Chaffetz. I thank the gentleman.
    Again, Senator Grassley, we are honored to have you here as 
the chairman of the Judiciary Committee. The time is now yours, 
sir.

                       WITNESS STATEMENTS

                STATEMENT OF HON. CHUCK GRASSLEY

    Senator Grassley. Those are very kind introductions. Thank 
you very much. And before I read, I would like to thank 
Chairman Chaffetz and Ranking Member Lynch not only for the 
opportunity to appear here but also I listened to your remarks 
about two things, whistleblowing and oversight, and they are 
kind of connected.
    And I want Mr. Lynch to know that I still stand by my 2009 
letter, and I am glad that everybody else so far that has 
spoken on this committee realizes that sometimes you are in the 
majority and sometimes you are in the minority. There is a 
process that has to be available. So I am going to be 
responding in a letter to the White House in a day or two to 
those recommendations they put out that I disagree with them 
and why I disagree with them.
    And I think a new phrase in this town is very appropriate 
for what this issue is all about because the word ``drain the 
swamp'' doesn't necessarily mean fire people or get rid of 
organizations. It means change the culture in this town. And 
one of the cultures is, whether you have Republican or Democrat 
Presidents, the bureaucracy is sometimes embarrassed by what 
they do, and we want to expose it and we want to expose it 
because transparency brings accountability, and accountability 
is very important if you work for the American taxpayers.
    The second thing I would say deals with the word 
whistleblower. Mr. Dodson is one example of how whistleblowers 
are treated both in Republican and Democrat administrations. 
And I suggest to this President, as I suggested to other 
Presidents, that what we need is once a year a Rose Garden 
ceremony honoring some whistleblowers so that the bureaucracy, 
which is permanent, and Presidents and Members of Congress are 
not permanent, that from the top of the bureaucracy, in other 
words, the Chief Executive all the way down to whatever you 
want to consider the job in the lower end of the bureaucracy, 
that whistleblowing is a political, patriotic thing and the 
right thing to do and that they ought to be honored. And 
normally, how are they treated by our bureaucracy not just in 
ATF, not just in the Justice Department but almost throughout 
the bureaucracy, they are treated like a skunk at a picnic and 
that is wrong. And government is less off for it when we have 
that attitude.
    I would like to proceed, so I hope you haven't started the 
clock yet.
    [Laughter.]
    Chairman Chaffetz. The way of the Senate, absolutely.
    Senator Grassley. Okay. Thank you for inviting me to 
testify about an important congressional investigation that the 
Justice Department has stonewalled for far too long: Operation 
Fast and Furious. This investigation began six years ago. The 
fact that it is still tied up in the courts is proof positive 
that our system of checks and balances is broken. Congress 
needs to reform its process for enforcing compliance with 
subpoenas.
    It all started when courageous agents blew the whistle on 
gunwalking to the Senate Judiciary Committee. We learned that 
the Bureau of Alcohol, Tobacco, Firearms, and Explosives 
sanctioned the illegal sale of hundreds of assault weapons to 
straw purchasers, who then trafficked the guns to Mexican 
cartels. These weapons have since been discovered in the hands 
of criminals both within the United States and Mexico. Two of 
these weapons were used in the firefight that led to the tragic 
death of Border Patrol Agent Brian Terry in December of 2010. 
After it became clear that the government planned to cover it 
up, agents, patriotic agents blew the whistle.
    On January 27, 2011, I wrote to ATF for answers. But the 
Department of Justice and ATF had no intention of looking for 
honest answers and being transparent. In fact, from the very 
onset, bureaucrats employed shameless delay tactics to obstruct 
the investigation. In a letter to me February 4, 2011, 
Department officials denied that ATF had ever walked guns. But 
the evidence kept mounting that the official denial was just 
plain false.
    Through documents obtained during this long litigation, we 
have learned how the bureaucrats and even political appointees 
reacted when they learned the truth. As the Department became 
aware that the information it provided to Congress was wrong, 
it kept the truth hidden. DOJ refused to come clean, refused to 
notify Congress, and refused to correct the record.
    As soon as March 2011, officials at ATF and within the 
Department raised concerns about the inaccuracy of the 
information provided to me in that February 4 letter. But the 
Department still failed to withdraw the letter until nine 
months later, in December, thus admitting they lied to a U.S. 
Senator or to the United States Senate.
    Why did it take so long then to admit the truth to 
Congress? Our two committees requested documents from the 
Department that would shed light on the delay. October 2011, 
this House committee issued a subpoena for documents from the 
Department of Justice, including documents related to the 
Department's response to Congress.
    The Department initially refused to produce any documents 
responsive to the subpoena. It refused to assert any privilege 
at that time or provide a log of withheld documents so that 
this committee could consider whether there were any 
legitimate, legitimate reasons for not providing those 
documents. Instead, the Department merely made vague, feeble 
claims that the documents implicated words we are acquainted 
with ``confidentiality interests'' or another words that they 
used as an excuse, ``separation of power'' concerns.
    Then, the ridiculous happened. In June 2012, the Justice 
Department had to ask President Obama to give it some cover by 
formally asserting executive privilege. The request came on the 
eve of a vote in this committee to hold the Attorney General in 
contempt. And the President's assertion was communicated to 
this committee only minutes before the scheduled vote. The 
committee rejected the President's claim on the merits, and so 
did the full House in a historic bipartisan vote because it = 
was the first time an Attorney General was held in contempt of 
Congress. But to add to the obstruction, the Obama 
administration refused to present the contempt citation to a 
grand jury, as required by statute.
    Then, in August 2012, this committee filed a civil lawsuit 
to try and enforce its subpoena that way. Once in the courts, 
even more lengthy delays then began. Two years later, in August 
2014, the court finally ordered the Department to review all 
the documents, provide a log explaining why it wanted to 
withhold specific items, and to produce everything that the 
Department itself admitted was not covered by any privilege.
    The Department then produced more than 10,000 of the 
originally withheld documents. These documents totaled about 
64,000 pages. To be clear--and this is very important--the 
Department tried to hide these documents from Congress by 
getting President Obama to assert executive privilege, but once 
the case was before a judge, the President then totally 
abandoned that claim. In effect, the government admitted that 
this privilege did not apply to those documents.
    Why did it take a contempt citation from Congress to force 
the executive branch to finally admit that it hid documents 
from the people's Representatives for completely bogus reasons? 
Attorney General Holder preferred to be held in contempt rather 
than admit the authority of this committee to compel production 
of the documents through a subpoena, even documents that the 
Justice Department and the President did not believe were 
privileged. If that doesn't illustrate how broken our system of 
congressional subpoena enforcement is, then I don't know what 
does.
    The capitulation of the Department, once a judge finally 
forced its hand, proves that the initial claims of privilege 
were deceptive and unfounded. It was nothing more than an 
attempt to obstruct Congress' constitutional responsibility of 
oversight and this investigation. The Department's belated 
admission that those 64,000 pages were not privileged puts the 
gold seal of authenticity on the House's bipartisan vote to 
hold the Attorney General in contempt. The documents exposed 
the Justice Department's intent to hide information from 
Congress and upsets the balance of powers.
    Obstructing a valid inquiry by a separate, co-equal branch 
of government undermines our constitutional system of checks 
and balances. The documents show a highly politicized climate 
at the Obama administration's main justice, focused more on 
spin and coverup than on transparency and fact-finding.
    Now, despite the court's orders to the Department to 
produce documents that were admittedly not privileged, the 
Judge's opinion as a whole is problematic, and we have to take 
a good look at that. Although the judge also later ordered the 
production of more material, the judge's reasoning is fatally 
flawed. The judge erroneously concluded that certain of the 
Department's underlying privilege claims, although waived, were 
valid. The judge gave the House a victory in practice but gave 
the Department a victory on principle.
    By splitting the baby in this way, the opinion seeks for 
the first time to push the scope of executive privilege outside 
the White House to cloak low-level government bureaucrats in 
secrecy. This is new and unprecedented territory. It is a major 
threat to the oversight powers of the legislative branch. The 
President should not be able to shield information in all the 
vast agencies and departments of government from congressional 
scrutiny. If it has nothing to do with advice to the President 
by his advisors, then why should it be privileged?
    That is why the House must push forward with its appeal to 
get the District Court's opinion overturned. The so-called 
deliberative process privilege is no constitutional privilege 
at all. It is common-law doctrine and a statutory exception 
under the Freedom of Information Act only. It only applies to 
discussions about the formulation of policy and only before a 
final policy decision has been made.
    The privilege should not extend to allow the Department to 
hide its internal communications about responding to Congress. 
These communications were not to or from the President, and now 
we know that they largely focused on obstructing Congress and 
strategizing to avoid negative press coverage. Those 
communications can hardly be characterized as forming 
Department of Justice policy, as the judge wants us to think, 
and should not even be protected by the deliberative process 
statutory exemption, let alone some new form of executive 
privilege.
    Now, this litigation has been ongoing for a long time. The 
American people, including the Terry family, they are right 
here, they are right here to remind us of what government can 
do that is illegal and get away with it. They remind us of what 
can be done when whistleblowers that are patriotically 
conscious come forward.
    So let me start again. The American people, including the 
Terry family here with us today, deserve a complete accounting 
for questions posed in this investigation that began with 
people coming to me in 2011. It has been, as we have repeated 
so many times, six long years. We are still waiting. But this 
is not just about documents in Fast and Furious. This case also 
must be considered from the perspective of the institutional 
role of Congress of oversight.
    So I urge you all to take off your partisan hats for a 
moment. Imagine if the shoe were on the other foot. This case 
has broad implications for the ability of elected 
representatives of the American people to do our constitutional 
duty to act as a check on the executive branch of government.
    Clearly, Congress needs to do something. It cannot take 
years for this body to get answers from a co-equal branch of 
government about information that has no legal basis to stay 
hidden from the representatives of the American people and a 
proper check to make sure that the executive branch does its 
job of duly enforcing the law.
    That is why I am working with my colleagues on proposals to 
modernize the rules of engagement in congressional oversight. 
We need a package of rules and legislative changes so that 
responders to congressional inquiries cannot rely on phony 
privilege claims and delay tactics. These changes will make it 
easier for Members of Congress to get the information they need 
to do their job for the American people that pay them and who 
they represent. So I look forward to continuing to work with my 
colleagues in both the Senate and the House on these proposals 
and hope you will all join me.
    I thank you for allowing me to appear, but more 
importantly, we would not be where we are today because in 2011 
I was not a chairman of a committee, and those excuses were 
used against me as this administration is using those excuses 
once again. So this committee was in the majority and we had a 
chairman and committee members that were willing to pursue 
this, and thank God you were in the majority at that time or we 
still may not have any information.
    Thank you very much.
    [Prepared statement of Senator Grassley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Chairman Grassley, thank you. We 
appreciate your time. We know you have an obligation in the 
Senate at 10:00, and by mutual agreement and concurrence with 
the minority, the committee is now going to go into recess. The 
committee's in recess.
    Senator Grassley. Thank you.
    [Recess.]
    Chairman Chaffetz. The committee will come to order. We are 
now here to recognize the second panel of witnesses. We are 
very pleased to welcome Ms. Josephine Terry. She is the mother 
of the late Border Patrol Agent Brian Terry. And, Ms. Terry, on 
behalf of all of us, both sides of the aisle, we thank you for 
your son's service, and God bless you. Thank you for being here 
and talking about a very difficult subject and appreciate your 
bravery and you being here today. I am sure this is not 
something in your life that you ever thought or chose to do, 
but we are honored and privileged to hear from you and want to 
hear your full story.
    We also have Mr. Robert Heyer. He is the Terry family 
spokesman. He is also the cousin of late Border Patrol Agent 
Brian Terry. And, Mr. Heyer, we again are saddened for the loss 
in the Terry family but appreciate your willingness and ability 
to come here and share a perspective from the family, which we 
should never, ever forget. And we thank you for being here.
    We also have Mr. John Dodson, who is a special agent, 
Phoenix Field Division, Bureau of Alcohol, Tobacco, Firearms, 
and Explosives. And if you listen to this gentleman's story and 
what he has gone through, somebody who is serving this country 
as patriotically as he possibly can, it is absolutely horrific. 
And, sir, we thank you for your service and everything that you 
have gone through. We appreciate your candidness, answering 
questions to the committee throughout the process. But we look 
forward to your public testimony, and again, thank you for your 
commitment to the United States of America and your willingness 
to come here and share your story with us as well.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So, if you will please, now that you have 
settled in, go ahead and stand back up and raise your right 
hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. Let the record reflect that 
all witnesses answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your verbal comments to five minutes. We 
will give you a little bit of leeway, but if you could limit 
that. Your entire written statement, as you have submitted, as 
the committee members already have, will be entered into the 
record.
    You are going to need to pull those microphones nice, 
tight, and close to your mouth, and then you just make sure you 
hit that ``talk'' button. There are lights there that will 
indicate, as Mr. Gowdy likes to say, green is go, yellow means 
speed up, and red means, okay, you have actually got to stop. 
So, pay attention to that if you could.
    But, Mrs. Terry, you are now recognized for five minutes. 
Push that talk button if you could. It should illuminate. Thank 
you. There you go.

                  STATEMENT OF JOSEPHINE TERRY

    Ms. Terry. Mr. Chairman and members of the committee, good 
morning. My name is Josephine Terry, and I am the mother of 
Brian Terry.
    My son was first a marine, a local police officer, and 
finally a Border Patrol agent. He loved his country and 
everything about it. He dedicated his entire adult life to the 
protection of the American people. Brian believed in truth and 
justice.
    Just over six years ago, Brian was on patrol in the Arizona 
desert. In the darkness, he was shot and killed by a cartel 
drug trafficker.
    I picked out my son's casket through weeping and tears. At 
his burial, Brian's coffin was covered with an American flag. 
My only goal was to make sure he was laid to rest with honors. 
That honor has been insulted by coverups and deception by the 
very people he served.
    I refuse to also let our flag cover up the fact of how and 
why Brian died or allow it to hide from those who are 
responsible. I need you to help me. I need you to help me now.
    ATF, the Department of Justice, and possibly people even 
higher up in the government knowingly intended to provide 
thousands of guns to the Mexican cartel. They gave their plan a 
glorious name, which was Fast and Furious. From the moment a 
bullet was fired from one of those Fast and Furious guns, from 
the moment that bullet entered Brian's body and ended his life, 
Brian's government, my government, your government, began to 
hide the truth.
    One of ATF's Fast and Furious leaders dismissed Brian's 
death by saying, ``You have to scramble a few eggs to make an 
omelet.'' That man has since been promoted by ATF and given 
awards by the Justice Department. Did you know that?
    ATF and DOJ made sure that all those involved were given 
new jobs or allowed to retire with their government pensions 
and benefits. No one was punished or prosecuted. When I pay my 
taxes and when you pay yours, we are funding the comforts of 
those who helped murder my son.
    We know that Brian encountered bad people that night he was 
killed. We know there was a gun battle. We know Brian was shot 
and killed. We know the gun used to kill him was fired by a 
drug trafficker. We know the gun was put in the murderer's 
hands by our government, and there is so much more that we 
don't know.
    I need you to have President Obama's executive privilege 
order that hides many of the facts from Fast and Furious 
overturned. I need you to ask President Trump to keep the 
promise he made to my family on his campaign trail to let you 
see those documents.
    Only one possible motivation remains for all of those 
involved who have covered up Fast and Furious. That is to 
conceal their own shame and disgrace, quite possibly their 
crimes.
    I need you to find out why Fast and Furious was even 
allowed to happen. I also need you to find out why those 
involved were all given soft landings for their lives and their 
careers, and not just the lower-level people but just the--and 
just the scapegoats. But how high did the knowledge and 
approval go? Our country deserves the truth, regardless of how 
embarrassing it may be.
    Brian believed in the truth and justice, and he died for 
it. What he would never would have accepted, and what I cannot 
accept now on his behalf, is the cover up of the truth and the 
avoidance of justice.
    As the chairman and members of the Oversight Committee, I 
sit before you and plead with you to fulfill the jobs that you 
have been elected to. I am giving you my faith that, as a 
public servant, you believe in truth and justice as much as 
Brian did.
    I have a picture of my son.
    He died for us. He died for all of us. He bled to death in 
the darkness of the Arizona desert, mostly alone, to protect 
this country. Please protect Brian now. Put your party policies 
aside. Fulfill your obligations to the American people. 
Represent all the people who voted for you into office and 
demand answers and full accountability.
    And on behalf of my family and myself and my son, I ask you 
to please see this through to a truthful and just conclusion. 
Thank you.
    [Prepared statement of Ms. Terry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. I appreciate that.
    Mr. Heyer, you are now recognized for five minutes.

                   STATEMENT OF ROBERT HEYER

    Mr. Heyer. Thank you, Mr. Chairman. Before I begin my 
comments, I just wanted to ask your indulgence as I describe 
the many indignities that the Terry family suffered over the 
last six years. No American family deserves to be treated like 
they have by their government.
    I see a lot of familiar faces here--well, not a lot but 
several familiar faces, and I want to thank those members that 
were here six-and-a-half years ago and six years ago almost to 
the day. Thank you for your leadership. Chairman Issa, 
Congressman Gowdy, and the other members of the Oversight 
Committee that originally fought for truth and the answers that 
the Terry family deserve.
    I think it's fair to say that Americans maintain a strong 
disdain for dirty little secrets, especially when those secrets 
are being kept by government officials looking to hide poor 
judgment and misconduct. The death of Brian Terry in 2010 
served as the catalyst that exposed a pattern of poor judgment 
and misconduct by several top officials in the Department of 
Justice, the U.S. Attorney's Office, and the Bureau of Alcohol, 
Tobacco, and Firearms.
    Despite Brian Terry's death, the full extent of the fatally 
flawed gun trafficking investigation known as Operation Fast 
and Furious was not immediately made known to the American 
public because government officials were keeping a dirty little 
secret.
    Good morning Chairman Chaffetz, Chairman Issa, Ranking 
Member Lynch, Senator Grassley, and other honorable members of 
this committee. My name is Robert Heyer. I'm the cousin of 
slain U.S. Border Patrol Agent Brian Terry and chairman of the 
Brian Terry Foundation. It's been almost six years since I 
first appeared before this committee. When I was here last, the 
impact of Brian Terry's death was still fresh and the 
revelation that our government had provided the very weapons to 
the men that killed Brian was almost too shocking to believe. 
Over time, I have developed a better understanding of Operation 
Fast and Furious and the questionable behavior of the 
government officials involved in that secret investigation.
    My comments to this committee six years ago were tempered 
because of my strong belief that once the facts of this case 
were known, our President and our Attorney General would move 
quickly and decisively to fully investigate the investigation. 
Back then, I was confident that our leaders would ultimately 
find and hold those government officials responsible for the 
many failures of that poorly thought-out gun trafficking 
investigation. Even the members of this committee promised to 
fully investigate and seek justice in the matter.
    Over time, I saw Department of Justice brimming with 
incompetence and arrogance. I witnessed government officials 
less interested in the truth and the facts behind the ill-
conceived investigation and more interested in moving to 
contain the public relations disaster of a U.S. Border Patrol 
agent being murdered by drug cartel members carrying weapons 
supplied to them by ATF.
    Agents in ATF who were privy to this information were 
expected to be good soldiers and keep their mouths shut. 
Inconceivably, no one in our government spoke openly about the 
connection between Operation Fast and Furious and Brian Terry's 
murder. Brian Terry's murder was the absolute worst-case 
scenario for those involved in orchestrating this gun 
trafficking investigation. Just as some ATF agents had warned, 
a U.S. law enforcement officer had been murdered with weapons 
allowed to ``walk'' during that investigation.
    The immediate reaction by officials at ATF, the U.S. 
Attorney's office, and DOJ was to limit the release of 
information and to ultimately deny the fact that weapons were 
ever ``walked'' to straw buyers working for the Mexican drug 
cartels. The fact that two assault weapons found at the murder 
scene were purchased a year earlier by one of the primary 
suspects in the investigation was deemed extremely sensitive 
and only discussed among top officials in these organizations.
    The Terry family and I believe that government officials 
responsible for Fast and Furious were not only trying to 
contain the political damage but were also trying to attempt to 
cover up the link between that information and Brian Terry's 
murder. There was a little dirty secret that was being kept 
from the American public.
    Over the last six years, we've witnessed a number of 
examples of clear incompetence and arrogance exhibited by those 
in ATF, the U.S. Attorney's Office, and DOJ as they attempted 
to contain the public relations disaster and distance 
themselves from the Fast and Furious investigation. A lack of 
transparency was noted in my many dealings with government 
officials over this time, and I began to understand why these 
officials were keeping the facts of the case from the Terrys.
    I remember at Brian Terry's funeral, then-DHS Secretary 
Janet Napolitano and Commissioner Alan Bersin traveled to 
Detroit to meet with the Terry family. Despite being the senior 
officials present, neither Secretary Napolitano or Commissioner 
Bersin chose to inform the family that the two assault weapons 
found at the scene were linked to the gun trafficking 
investigation. It should be noted that these two senior 
officials had just come back from Tucson, Arizona, where they 
had been extensively briefed on Brian Terry's murder by the 
head of the FBI in Tucson and the U.S. Attorney's office.
    In January 2011, the Terrys attended the public memorial 
ceremony held in Arizona. Again, Commissioner Bersin attended, 
along with U.S. Attorney Dennis Burke to meet with the family. 
Once again, neither official chose to share the information 
that the men that killed Brian Terry carried weapons provided 
them--to them by ATF.
    It wasn't until February that the family began to learn the 
truth. The facts were not provided by government officials but 
rather by a lone whistleblower who was alarmed at the lack of 
transparency surrounding Brian Terry's death. With the 
exception of this lone ATF agent, no one in government was 
willing to talk publicly about the dirty little secret known as 
Operation Fast and Furious and its connection to Brian Terry's 
murder.
    In February of 2011, the family of Brian Terry learned for 
the first time through a television journalist that the weapons 
found at the murder scene were, in fact, connected to Fast and 
Furious. No one in the Federal Government had ever spoken to 
the Terry family about this connection. Despite the claims of 
ATF Special Agent John Dodson, officials in ATF and DOJ 
continued to deny that guns had been sold to individuals known 
as straw buyers and that those weapons eventually ended up in 
the hands of the Mexican drug cartels.
    It was then, only after the news media began to publish 
Agent Dodson's claims that U.S. Attorney in Arizona, Dennis 
Burke, offered to provide information to the Terry Family. And 
in March of 2011, Burke traveled to the Terry home in Michigan. 
When asked about the origin of the weapons found at the murder 
scene, Mr. Burke denied that they were part of Operation Fast 
and Furious. Instead, he told family members the weapons were 
found at the murder scene originated from a gun store in Texas. 
We now know that this was untrue.
    We know now through emails obtained by this committee that 
Mr. Burke without a doubt on the evening of Brian Terry's 
murder knew that the two AK-47-style assault weapons found at 
the murder scene were from Operation Fast and Furious. We know 
now that on the same day of Brian Terry's death, DOJ and ATF 
personnel were scrambling to find and arrest Jaime Avila, Jr., 
the well-known straw buyer of these exact weapons. Despite 
these facts, no one in government wanted to talk about their 
dirty little secret with the Terry family or the American 
public.
    In April of 2011, I traveled to Phoenix and received a 
briefing from the U.S. Attorney's Office on the status of the 
murder investigation. I was told that the FBI had conducted 
ballistic tests on the two weapons found at the murder scene 
and the bullet recovered from Brian Terry's body. I was told 
that the FBI had determined without a doubt that neither weapon 
recovered from the murder scene had fired the fatal bullet.
    I later obtained that FBI ballistics report from sources 
outside of the DOJ. What that report really says is that the 
test results were inconclusive due to deformities of the bullet 
recovered from Brian's body. I have always wondered why the 
U.S. Attorney in Arizona and his staff were not more precise in 
their description of that FBI ballistics report.
    Senator Grassley already spoke about the letter sent by DOJ 
on February 4, 2011, and even today, I find it professional 
incomprehensible that the DOJ officials failed to simply speak 
with ATF Agent John Dodson and interview him about Operation 
Fast and Furious. Had these officials chosen to speak with 
Agent Dodson, they would have learned the truth about 
gunwalking immediately.
    It was about this time that Assistant Attorney General 
Lanny Breuer arrogantly stated that if Brian Terry had not been 
killed with an Operation Fast and Furious gun, he would have 
been killed by some other gun. I was sickened by Mr. Breuer's 
comments not only because they were incredibly callous, but 
also because Mr. Breuer's comments reflected an unprecedented 
level of arrogance within the Department of Justice at the 
time.
    We know now that Mr. Breuer himself received briefings on 
Operation Fast and Furious and failed to exercise the good 
judgment and common sense to foresee the public safety 
ramifications of letting 2,000 military style weapons ``walk'' 
to the Mexican drug cartels. Mr. Breuer's callous comments also 
failed to take into account that Brian Terry and his BORTAC 
team would have used different tactics when trying to apprehend 
a drug cartel rip crew if they had only known that ATF and the 
Department of Justice had armed these individuals with state-
of-the-art military weapons.
    If only Mr. Breuer, the DOJ attorneys, and the ATF bosses 
in Phoenix Field Division had not kept this dirty little secret 
from the U.S. Border Patrol. I believe that if Brian Terry and 
his team had known this information, chances are Brian would be 
alive today. Unfortunately, Brian Terry and his team had no 
idea that the rip crew they encountered would be emboldened by 
the weapons that they carried and were ready to use those 
weapons against U.S. law enforcement.
    The most disappointing and demoralizing act of all for the 
Terry family was in June of 2011 when President Obama asserted 
executive privilege over documents being sought by 
congressional investigators. The President's order effectively 
ended the hope of the Terry family to fully understand why the 
Department of Justice denied gun walking in the first place. My 
personal disappointment in the President on this decision to 
invoke executive privilege in this matter continues to this 
day.
    In September 2012, we read the long-awaited report on 
Operation Fast and Furious from the inspector general. The 
report identified several Department of Justice employees who 
bore particular responsibility for the many mistakes made in 
Operation Fast and Furious. It should be noted that these 
individuals have continued in their employment with the 
government despite the findings of the IG's report and the 
death of Brian Terry.
    Additionally, ATF's own Professional Review Board had 
recommended termination for at least one of these individuals; 
yet, ATF leadership failed to act on this recommendation. 
Instead, these employees were instructed to keep their mouths 
shut, and in return, they would be provided with private 
defense attorneys whose exorbitant fees would be paid by the 
American taxpayers.
    In 2014, I spoke with the lead special agent investigating 
the murder of Brian Terry. The agent told me that she had not 
been initially informed by ATF agents or the U.S. Attorney's 
Office personnel that the weapons recovered from the scene of 
the murder had been traced to Operation Fast and Furious. 
Imagine my shock in learning that members of ATF's Phoenix 
Field Division and the U.S. Attorney's Office in Arizona kept 
this important piece of information from the lead investigator 
in a Federal agent's murder. That FBI agent went on to say that 
she learned of this connection only when the news media began 
to report the link almost two months after Brian Terry's 
murder. Incredibly, not even this lead FBI agent was allowed to 
know the dirty little secret.
    Did members of ATF's Phoenix Field Division and the U.S. 
Attorney's Office in Arizona attempt to keep the details of 
Fast and Furious and its connection to Brian Terry's murder 
from becoming public knowledge? We now know through review of 
official emails that ATF officials in Phoenix associated with 
the investigation and members of the U.S. Attorney's Office 
there knew on the evening of Brian's murder that the two 
weapons found at the murder scene were directly linked to the 
investigation by means of weapons trace data. However, this 
critical information was not passed to the lead FBI case agent 
investigating Brian Terry's murder.
    I've also witnessed a continued pattern of abuse and 
retaliation directed against ATF Special Agent John Dodson by 
members of ATF. Incredulously, senior members of that agency 
continue to blame Agent Dodson for going public with the 
information connecting Brian Terry's murder with Operation Fast 
and Furious. I have watched other agents who were regarded as 
``good soldiers'' be promoted while Agent Dodson remains in the 
same pay grade, shunned by most of the agency.
    Ladies and gentlemen, it's time for the dirty little 
secrets of Operation Fast and Furious to be fully exposed. A 
number of lingering questions should be asked: Why was 
Operation Fast and Furious initiated and then suddenly 
concealed by senior members of ATF and the Department of 
Justice? Why did the Department of Justice deny the tactic of 
gunwalking only to retract that denial weeks later? How many 
Fast and Furious weapons have been recovered over the last 10 
years? How many people besides Brian Terry have been killed or 
wounded by individuals carrying Operation Fast and Furious 
weapons? Was there an attempt to keep the link between 
Operation Fast and Furious and Brian Terry's murder from 
becoming public knowledge? And finally, did senior government 
officials engage in behavior considered as obstructing 
Congress?
    We urge the Trump administration and the Department of 
Justice to revisit the claim of executive privilege as it 
relates to Operation Fast and Furious. The American public 
deserves to see the documents previously sealed by executive 
order and for those documents to be turned over to 
congressional investigators. We need all of you, both 
Republicans and Democrats, to exercise your responsibility of 
oversight in this matter.
    Brian Terry gave his life protecting the United States, and 
he deserves at the very minimum that we honor his sacrifice by 
demanding answers to the many questions left unanswered 
surrounding Operation Fast and Furious and once and for all 
putting an end to this dirty little secret.
    [Prepared statement of Mr. Heyer follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Mr. Heyer, thank you. We appreciate your 
testimony.
    Special Agent Dodson, you are now recognized.

                    STATEMENT OF JOHN DODSON

    Mr. Dodson. Thank you. Good morning, Chairman Chaffetz, 
Ranking Member Lynch, honorable members of this committee, 
thank you for your continuing efforts and investigation into 
this and the many other matters that come before you. Your duty 
is an important one.
    I am honored and humbled to have received an invitation to 
again address this body and to take part, however small, in 
such a fundamental and important proceeding in the governing of 
our nation. It is a privilege that I do not take lightly.
    Nearly six years ago to the day, I sat at this table with 
my fellow whistleblowers as we described for you the ATF's--
excuse me--ill-conceived and deadly gunwalking operation known 
as Fast and Furious. Today, I have been asked to return and 
tell you what has transpired since, the aftermath if you will.
    First, allow me to say that it is not my desire nor my 
intent to sit here and cry foul, purport myself as a victim, or 
to seek sympathy. Nothing I say here today can compare to the 
ultimate sacrifice of Brian Terry or to the immeasurable loss 
and injustice suffered by the Terry Family. I am here simply to 
tell you my story, and you will conclude from it what you will. 
But it is just that, mine alone, just one of many from an 
untold number of whistleblowers, each of whom have a story all 
their own, some having fared far better, some worse, but each 
important, each personal to them, and all worthy of being 
heard.
    It is my hope that my story will not give cause to dwell on 
those things that have already occurred, but rather utilized to 
help us pursue a common goal, that of learning from the past to 
better ourselves as individuals, as a government, and as a 
nation.
    Since the moment I first voiced objection to the strategy 
of gunwalking and pointed out the all-too-foreseeable and 
tragic consequences of it, I began being subjected to 
reprisals, initially from my immediate supervisor, then my 
chain of command, and soon thereafter, from the uppermost 
echelons of my agency, the ATF.
    Later, after being compelled to blow the whistle and bring 
the deadly ramifications of it to the light of others, to you, 
and to the public, I found myself squarely in the crosshairs of 
the Department of Justice itself. That decision, the single act 
of standing up and saying what we are doing is wrong, instantly 
took my standing from being that of an agent of the government 
to an enemy of the state.
    United in their hubris and without ever once talking to me, 
asking me a single question, or properly investigating what it 
was that I was actually reporting, ATF and DOJ officials 
implemented an all-out campaign to silence and discredit me.
    When I began preparations for this hearing, I started to 
list the many acts of retaliation and retributions that had 
befallen me as a result of blowing the whistle. And truthfully, 
that list soon grew much too long and much too cumbersome to be 
recited here today before you: no less than three plots to have 
me arrested and criminally charged; subjected to multiple 
Internal Affairs investigations; my communications monitored 
and my activities surveilled; I was lied about, disparaged, 
publicly attacked, ridiculed, libeled; I've been transferred 11 
times, denied promotion, ostracized, barred from government 
workplaces, and banned from public buildings, including those 
open to the public, and the list goes on and on. Suffice to 
say, the last six to seven years at ATF have not been the best 
for me or my career.
    Of all the things that I have encountered and experienced 
over the past few years, the single most challenging aspect for 
me has been the ostracism. When I had a valid viewpoint to 
share that was viewed as unfavorable to the agency, I 
immediately became the outcast, dubbed the one who can't get 
along, accused of being unethical, and became the one whose 
opinions and views were not even valued enough to simply be 
heard. Open discussion was off the table and the order was 
handed down ``Contact with Dodson is detrimental to any ATF 
career.''
    The ignorant assumptions about my motives and the absurd 
judgements of my character being used as the reasons to cast me 
out simply are not true. Yet they have been and continue to be 
the single most difficult reprisal strategy for me to 
personally overcome. You see, the fact is, before Fast and 
Furious I was a good agent, experienced and dedicated, 
hardworking, and respected. ATF had always been good to me. I 
believed that I worked for a good agency, full of good people. 
I felt that I was part of something bigger, and I was proud to 
carry the badge.
    Never could I have foreseen the many twists and turns of 
how this would eventually end up affecting every aspect of my 
life, personally and professionally. These days, I remain in a 
state of purgatory, an agent with no agency. All that has 
happened and all that has transpired was not because I had done 
something wrong but because I did what I thought was right, 
what I thought I was supposed to do, and merely what I thought 
was expected of me.
    As an ordinary GS-13 field agent, I found myself in the 
extraordinary situation, adrift in some deep and unfamiliar 
waters and having to navigate the many storms and the perilous 
hazards. But this journey, despite hardship, mistake, failure, 
and loss, has taught me much more than I ever knew I needed to 
learn. Woven in the battered sail of life's biggest trials is 
where we can find the threads of life's greatest lessons if 
only we are willing to learn them.
    My desire here today is to offer insight for calming the 
seas for future whistleblowers, as well as helping Brian 
Terry's family in getting their deserved answers to the so many 
lingering questions. In doing so, I hope to assist this 
committee in its prescribed duty of oversight and reform, which 
is essential to our government's original purpose, serving the 
people of this nation. I welcome and encourage all questions 
that will assist this committee in achieving these outcomes.
    Thank you, and my wishes for a speedy recovery to Ranking 
Member Cummings.
    [Prepared statement of Mr. Dodson follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
    Chairman Chaffetz. Special Agent Dodson, thank you. Thank 
you for your service and thank you for your testimony.
    We will now recognize the gentleman from California, Mr. 
Issa, for five minutes.
    Mr. Issa. Thank you, Mr. Chairman. That is very kind. Maybe 
I will start off by saying, Special Agent Dodson, you look 
older. It has been a tough six years. Special Agent Heyer, Bob, 
you, too, look older. And when we started this, you were 
protecting the President. You were a Secret Service agent 
heading up San Diego. Now, you are retired. A lot has happened.
    Josie, you look a lot older. This has been unforgiveable 
and unreasonable to do to any mother, and you have my apology 
and an apology I think of everyone on the dais for taking so 
long.
    But today, I am hoping to maybe give you a little different 
view than you would have heard from others. You heard a little 
of it from Senator Grassley. What you are going through, what 
you have suffered through for six years, at its best you will 
suffer through for another two. And the reason is we are in a 
struggle for whether this happens to another family. If the 
Trump administration were to simply hand over the documents in 
a negotiated agreement and the case were closed, a bad ruling 
by a judge who was appointed by President Obama would stand not 
as a precedent but certainly as something to be looked at the 
next time a case came from this or any committee of the 
Congress.
    Only by having her bad ruling reversed by an appellate 
court will there be a clear understanding that the President's 
disingenuous, obstructive, false assertion of executive 
privilege was wrong. And the remaining documents not handed 
over voluntarily or a portion of them but rather for all time, 
not understanding that what you have gone through should be 
quickly dealt with in a matter of weeks or months because a 
court would understand that there is a precedent that says very 
clearly the coverup of a crime cannot be held.
    Now, to be honest, there is a good precedent. It was 
Richard Nixon's case, and it went all the way to the Supreme 
Court. In a matter of months, in a fraction of what you have 
gone through, the court decided those tapes were to be turned 
over. But for some inexplicable reason, the courts have slowed 
to a crawl the consideration of these cases.
    So I wish I could ask you a lot of questions. I think your 
testimony makes clear what you have gone through and what you 
continue going through. But if we are going to protect people 
like Special Agent Dodson, we are going to need a quick 
resolution of what they have given us and not a decade of 
waiting.
    And, Ms. Terry, Josie, if we are not going to have this 
happen again, we are going to need a strong reversal of a 
decision that, if you will, codified the wrongdoing of the 
Attorney General.
    Now, I presented a t-shirt to Senator Grassley, and it is a 
little bit lighthearted, but it really isn't. One of the 
documents that was covered up was his disdain for this 
committee and the work we were doing. Issa and his idiot 
cronies was a verbatim of what he was saying, but it was much 
more than that.
    As you will see in the report that is being published--and 
thank you, Chairman, for bringing it to light--some of those 
documents that came after my chairmanship was over made it 
clear that they had deliberately not searched on the terms 
necessary to give the documents that would have given us a more 
full picture another form of obstruction of justice. Clearly, 
the Attorney General lied to Congress when he made it seem like 
he wasn't deeply involved in this when in fact he was having a 
daily briefing and update on it.
    So one of the things I am going to say today is that I am 
calling on the Speaker of the House to stop negotiations with 
the Trump administration because nothing the Trump 
administration can give would guarantee that another family 
wouldn't go through exactly what you have gone through in the 
years to come. A quick consideration by a court of appeals, a 
reversal and a remand would get you your documents, but it also 
would guarantee some other mother, some other cousin, some 
other agent wouldn't go through what you have gone through for 
six years. Now, that is not an easy request, but I hope, as we 
all seek those documents, we also seek a codified solution to 
this.
    And by the way, when those documents are completely 
uncovered, I would hope that this committee would refer for 
criminal prosecution the former Attorney General Dennis Burke 
and others for crimes I believe they committed. In fact, I 
would like to know and probably never will, did the President 
of the United States, when he issued a broad executive 
privilege, know that it was false and clearly false, as we have 
discovered, that these documents were never anywhere close to 
what an attorney and a constitutional scholar as he would like 
to be known had asserted? Maybe it was just carelessness. Maybe 
he did not look and he took the word of the Attorney General. 
That is a further indictment of the Attorney General if it 
happened.
    So I plan on continuing to push this with your help, with 
the chairman's help and others, but I would ask you to be 
patient because to get to the truth and to a solution will take 
time.
    Thank you, and thank you, Mr. Chairman, for your 
indulgence. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Massachusetts, Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    And I first want to thank Mrs. Terry, Mr. Heyer, and 
Special Agent Dodson for your courage in coming forth today and 
testifying in Brian's memory. Your experience, I think, is a 
painful reminder that we have law enforcement officers 
throughout our government that put their lives on the line each 
and every day on our behalf. Brian Terry's life, I think, 
exemplified this dedication and not only as a Border Patrol 
agent but also as a United States Marine and as a police 
officer back in Michigan.
    I do understand that a foundation has been created in honor 
and memory of Brian Terry, and I want to just take a few 
minutes today before this committee considering his legacy and 
his life and his courageous service.
    Mr. Heyer, I understand that you are the--chairman is it? 
Chairman of the Brian Terry Foundation and one of its missions 
is to provide assistance to family members of Border Patrol 
agents who are injured or killed in the line of duty. Can you 
tell the committee a little bit about this?
    Mr. Heyer. Well, thank you, Mr. Lynch. Absolutely. The 
Brian Terry Foundation continues to support the family that is 
the U.S. Border Patrol. And, unfortunately, we know deaths are 
going to occur in the line of duty, and that's when one of our 
missions is to come to the financial and emotional aid of 
family members.
    And the second big piece would be our scholarship program 
specifically designed for men and women looking to go to 
college and earn a degree in criminal justice that are going to 
allow them to pursue careers in law enforcement.
    Mr. Lynch. That is a great way to, I think, carry on 
Brian's legacy.
    We did have one other issue up here before this committee 
that has some parallels. As many people remember, a young man 
from Massachusetts, my home State, Glen Doherty, was actually 
killed on the roof of the Benghazi compound. He was a CIA 
contractor, and so under the regulations, under the base act 
of, you know, 1945 I believe, he was ineligible for a death 
benefit because of his status. And it was really the work of 
this committee and Democrat and Republican working together. We 
got the Department to change their policy so that his family 
was able to receive the death benefit, as they so deserved. He 
was a former Navy SEAL, had done multiple tours in Iraq and 
Afghanistan, but, you know, because of the bureaucracy and the 
regulations, they were denied justice.
    And I just want to say that I would ask the Department of 
Justice to review its policies and procedures as well for 
responding to families such as the Terry family when Federal 
agents lose their lives in the line of duty in defending this 
country. I would just say, Mrs. Terry, do you have anything 
that you would like to add with respect to how Brian's legacy 
might be more appropriately remembered and supported, as well 
as his colleagues?
    Ms. Terry. Mostly, Brian's legacy is remembered by his 
foundation like last year we only got 15 scholarships; this 
year, we got 40 so ----
    Mr. Lynch. Wow.
    Ms. Terry. So the word is getting out. And he was all about 
learning, so I think that--I think he would like that.
    Mr. Lynch. Is the Justice Department a participant or a 
sponsor or a supporter of the scholarship effort?
    Mr. Heyer. Not that I'm aware of, no.
    Mr. Lynch. Okay. And you are the chairman so you would 
know. All right.
    Again, I want to thank you for your willingness to come 
here.
    Special Agent Dodson, how can we help? How can we help you? 
You have shown a tremendous amount of courage in calling out 
the government when they were engaging in unlawful activity 
that endangered the citizens of the United States in complete 
dereliction of their duty. Are there things that this committee 
can continue to do to help you and make sure that you are 
treated fairly?
    Mr. Dodson. Well, first of all, thank you, sir. I 
appreciate it.
    To be honest with you and in short, I don't know. The 
problem as I see it or from where I sit is not so much with the 
current leadership that we have at ATF. I don't believe they 
are directly responsible for any of the acts that have taken 
place since they took over the reins. But this culture that 
Senator Grassley talked about in his remarks to you is the 
problem. And I don't want to be that kind of person that comes 
here and tells you about the problems and doesn't offer you a 
solution, but quite honestly, I don't know how you fix it.
    Mr. Lynch. Yes.
    Mr. Dodson. It's this middle management, this core, this 
bureaucracy that picks a side. And once sides are chosen, 
decisions are made, opinions are rendered, and it's done. And 
so--and I don't know how you overcome that. I've been trying 
for almost seven years now and have had absolutely no luck in 
doing so.
    But I appreciate it. I appreciate you having me here, and I 
appreciate everything that you guys are doing for the Terry 
family and for Brian's legacy. And as much as I appreciate the 
offer, again, I don't know. I don't ----
    Mr. Lynch. All right. We will keep working on it.
    Mr. Dodson.--have any requests of you.
    Mr. Lynch. All right. Thank you. And I--thank you for your 
service, and I yield back the balance of my time.
    Chairman Chaffetz. I thank the gentleman.
    I will recognize the gentleman from South Carolina, Mr. 
Gowdy, for five minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Ms. Terry, Mr. Heyer, I want to begin by expressing our 
condolences and sympathy ongoing for the loss of your son, 
Special Agent Terry. And I want to ask you a question in just a 
moment, but Special Agent Dodson, there was a franticness, an 
obsessiveness exhibited by Federal law enforcement officers 
with respect to narcotics, controlled delivery of pornography, 
even money, which is not inherently dangerous as firearms and 
narcotics and pornography would be, this obsessiveness, this 
franticness of never letting that walk. So that would be only 
intensified if you were working with firearms.
    From the very first moment I heard about Fast and Furious, 
it has vexed me how anyone could have ever thought this 
investigative scheme was going to work. I don't know how a line 
agent would think it was going to work, and that is why line 
agents have supervisors and assistant U.S. attorneys and U.S. 
attorneys that say, wait, your heart might be in the right 
place, but this may be the dumbest idea I have ever heard. How 
did this investigative scheme get started? Who thought it was 
ever going to work?
    Mr. Dodson. Well, sir, I can tell you I can't tell you 
where the idea originated from or who was ultimately 
responsible for beginning it, but apparently--or what I can 
tell you directly is everyone in my chain of command, up to and 
including the former Director, was well-briefed on the case, 
well-versed on it, and knew the strategy coming and going and 
they all thought it was a great idea.
    The U.S. Attorney's Office in Arizona, as well as up to 
Main Justice were--you yourself know the requirements of big 
cases or big problems and the briefings you have to go all the 
way to OEO, the Office of Enforcement Operations, to do some of 
the techniques involved in the investigation that we were 
doing, the OCDETF funding that we had, the proposals that were 
written for that, it was all spelled out, sir.
    Everyone knew it. It was there in black and white. And I 
always thought as soon as we got to the next level, somebody's 
going to shut it down. As soon as they hear about it, it's 
going to get shut down. But that never happened. It kept 
getting more funding, more approval, more attaboys. The people 
that were running it were called to D.C. several times to brief 
it at headquarters, at Special Operations Divisions, and over 
at Main Justice, and it just seemed--it was the new strategy. 
All the rule books that you and I are aware of were thrown out.
    I worked with DEA for a number of years. We were never 
allowed to walk dope, not a gram of it. And walking money was--
we would have to go and work a case through a county to get 
approval to that. DEA would not authorize it. So, when I heard 
that we were walking guns, it was completely alien to me.
    Mr. Gowdy. Well, I am glad to hear that because it is alien 
to me, too. I cannot imagine letting someone that you even 
suspect to be a straw purchaser purchase a firearm and then let 
that firearm navigate its way through the criminal element only 
to be recovered at a crime scene. I just--I find it 
unfathomable that anyone could ever have thought this would 
turn out any differently than with the mother of a slain 
Federal law enforcement agent and/or ordinary citizen sitting 
at a table. I have tried to give--I actually like Federal law 
enforcement officers. I am probably biased towards them.
    I am just struggling to understand how this ever could have 
turned out any other way. As soon as the gun leaves the parking 
lot, unless you are maintaining constant surveillance, then you 
have lost the gun. And then if it crosses the border, God knows 
what you are going to do with it. And then when you learn they 
didn't even let our Mexican counterparts in law enforcement 
know what was going on, this is most imminently predictable 
tragedy that I have been connected with since I have been in 
Congress. It could not have turned out any other way.
    Ms. Terry, I want to ask you one question, and then I want 
to have a very brief conversation with the chairman. For lots 
of America, they view your son as a hero, but all they have 
seen is the still photograph of a young man in uniform. What 
would you like our fellow citizens to know about your son that 
they may not know?
    Ms. Terry. Brian was--he was like a special, special 
person. He was dedicated--he was a true American. He was just 
dedicated to his country. He loved to be in the limelight. He 
lived helping people, protecting people, and that's what he 
always wanted to do.
    Mr. Gowdy. Well, thank you. He was wired differently, the 
different uniforms that he wore. Most of us are not wired to 
want to run towards danger. Most of us are wired to protect 
ourselves first and foremost and not others, so you raised an 
outstanding human being, and I hope that that provides some 
level of comfort to you, even in the throes of your grief.
    In conclusion, Mr. Chairman, I would just say this. Perhaps 
I have missed something. I thought the administration said that 
they were not part of the approval and were not part of the 
process and had nothing to do with this investigative scheme. 
So, I guess I am vexed in how you can use a defense of 
deliberative process if you were not part of the process. And I 
would encourage you to share this report with the chairman of 
the subcommittee that provides appropriations for the 
Department of Justice. His name is John Culberson from Texas.
    And I would encourage you to share this report for this 
reason: We all have privileges and rights, and all across 
America, every day people waive those privileges and rights 
because there is an incentive to waive them. I would give DOJ 
an incentive to waive their privilege, and I might do it 
through the subcommittee chair of appropriations.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Maryland, Mr. 
Raskin, for five minutes.
    Mr. Raskin. Mr. Chairman, thank you very much.
    And I would like to start by offering my appreciation and 
my continuing condolences to the Terry family. Mrs. Terry, Mr. 
Heyer, thank you for coming here today to share your story with 
us. Brian Terry was an extraordinary young man with an 
extraordinary legacy now, and thank you for putting it to use 
for whole new generations of idealistic young people going into 
law enforcement, as Brian was.
    I also want to associate myself very strongly with the 
remarks of Mr. Gowdy. I am dumbfounded and baffled by this law 
enforcement technique, which just seems patently ridiculous to 
me, but again, I am not steeped in the field but it just 
doesn't seem to make any sense, this idea that was deployed in 
the Fast and Furious investigation.
    We were hoping to hear from Attorney General Sessions 
today, but I take it he declined to come or to send someone in 
his place. But, Agent Dodson, I had a question for you. On 
January 27th of 2011, Senator Grassley, then the ranking member 
of the Judiciary Committee, sent a letter to ATF's Acting 
Director Melson requesting information about gunrunning 
operations on the southwest border. And his letter marked the 
beginning, as I understand it, of the years-long investigation 
by Congress into Operations Wide Receiver and Fast and Furious.
    Can you briefly explain the role of Senator Grassley in 
launching the gunwalking investigations and bringing all of 
this to light?
    Mr. Dodson. Yes, sir. The role of Senator Grassley and his 
staff was instrumental, dare I even say lifesaving for me at 
some point. They were the only ones at this level--once DOJ had 
been informed--you have to understand I was--I didn't 
understand the concept either or how this was ever approved. 
So, when DOJ--or--and ATF headquarters originally denied that 
they were ever doing this, I kept thinking, okay, well, as soon 
as it gets to the next level, the next level, then somebody's 
going to shut it down and will realize. Well, that never 
happened. It was only Senator Grassley's office and his staff 
that listened to me and considered and looked at the evidence 
and the information that I had and started asking the questions 
about it. They were great. And Senator Grassley did it to me, I 
believe, for no other reason than it was the right thing to do. 
He was in the minority at the time in the Senate, and as such, 
he was the minority leader and didn't have a subpoena power.
    Mr. Raskin. Let me pause right there because it goes to my 
point. He indeed is a great champion of transparency in 
government and public integrity, and we owe him a great deal of 
credit for his diligent oversight, which ended up exposing this 
terribly flawed logic behind the gunwalking operations in 
Arizona and led to the reforms at ATF.
    Unfortunately, we just learned of a serious barrier to 
Congress' ability to conduct exactly this kind of oversight 
that Senator Grassley was engaged in. Last week, it was 
reported that the White House had directed government agencies 
not to cooperate or respond at all to oversight requests from 
Members of Congress who are not committee chairmen, in other 
words, from the minority side, as Senator Grassley was.
    And it appears to stem from a flawed new opinion from the 
Office of Legal Counsel saying that individual Members, quote, 
``do not have the authority to conduct oversight in the absence 
of a specific delegation by a full House committee or 
subcommittee.'' I believe this analysis is completely 
incorrect, constitutionally unfounded, and will be of great 
detriment to the public interest.
    Agent Dodson, when Senator Grassley wrote the Obama 
administration seeking information about Fast and Furious in 
the minority, he was a ranking member, not a committee chairman 
as you point out. Do you agree that he still deserved a 
response? Do you think it is important for all Members of 
Congress to be able to exercise the constitutional oversight 
power?
    Mr. Dodson. First of all, I also want to say after dealing 
with Senator Grassley's office and then Chairman Issa at the 
time, he and his staff, this committee staff, took up the 
gauntlet and helped us all immensely, and I just want to make 
sure that he's thanked as well and your staff and Steve and 
just everyone.
    But to your question, sir, I am not an attorney. I don't 
necessarily know what those decisions ----
    Mr. Raskin. So as a matter of public interest, leaving 
aside the ----
    Mr. Dodson. As a matter of public interest ----
    Mr. Raskin. Yes.
    Mr. Dodson.--I can tell you what--I found it completely 
reprehensible or completely unacceptable to me that the 
administration would tell Senator Grassley, the ranking member 
of that committee, that he had no business to do oversight and 
that they weren't going to provide him any information or any 
documents.
    Mr. Raskin. Yes. Well, good. I appreciate that. And I will, 
Mr. Chairman, ask colleagues on both sides of the aisle to join 
me in urging the administration to respect all Members of 
Congress and all of our oversight responsibilities, regardless 
of the political party we belong to, regardless of whether we 
happen to be wearing a hat of the majority or a hat of the 
minority. We are all equally Members of Congress. Again, I want 
to thank you for your service and the Terry family again for 
its public service and devotion to keeping the legacy of Brian 
Terry alive.
    Mr. Issa. Would the gentleman yield?
    Mr. Raskin. Yes, by all means.
    Mr. Issa. Maybe a clarification. The odd thing was the 
Senator did get an answer as a member of the minority. It just 
happened to be a lie.
    Mr. Raskin. Well, and that goes to another question, which 
I do think that ----
    Mr. Issa. So maybe it is about getting the truth in 
addition to ----
    Mr. Raskin. Well ----
    Mr. Issa.--who gets it.
    Mr. Raskin.--number one, an answer; and number two, a 
truthful answer. With that, I concur. I think that is implied 
in the Constitution. The whole Constitution is based on the 
truth. It is based on the idea that--that is why we have an 
oversight responsibility because in a democracy, the people 
have the right to truth.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. The gentleman yields back.
    And I just want to note, as I noted earlier, I agree with 
you. I think it is a dangerous precedent and unwarranted and 
unfounded to suggest that just committee chairmen can initiate 
something that the administration would actually respond to. I 
think every Member of this body, no matter which party you 
belong to and no matter who is in power, has a duty, a 
responsibility, it is one of the core things we do is provide 
oversight over the executive branch. It is not just delegated 
to 18 chairmen.
    With that ----
    Mr. Raskin. And thank you for your leadership on that, Mr. 
Chairman.
    Chairman Chaffetz. I thank you.
    I will now recognize myself for five minutes.
    Mr. Heyer, I want to talk about your--the family tried to 
do a motion to intervene--during this prosecution--let me back 
up. The Terry family tried to get some rights from the 
Department of Justice. Tell us about that experience.
    Mr. Heyer. Chairman, it seems like every interaction with 
the Department of Justice became a battle. They fought and 
continue to fight every request, every attempt that we've made 
to gather information, to understand the aspects of the--why 
DOJ did what they did. It's been a contentious relationship, 
and that's why I said early on, no American family deserves to 
be treated like the Terrys were treated by their government, by 
their Attorney General.
    Chairman Chaffetz. Now, you tried to receive some victim's 
rights, claiming that the Terry family, Mrs. Terry, was a 
victim in this case. What did the Department of Justice do?
    Mr. Heyer. Well, after much discussion and threats of 
litigation, we finally reached a compromise, which it seemed at 
a minimum the Department could extend victim rights to the 
Terry family. But again, everything was a battle and remains 
contentious to this day.
    Chairman Chaffetz. The Department of Justice in this case 
argued that the family, quote, ``was not directly or 
proximately harmed by the illegal purchase of the murder 
weapon. The family does not meet the definition of a crime 
victim,'' end quote, was the position of the Department of 
Justice. I hope that the Department is learning this lesson and 
I can't imagine all the horror and things that you have gone 
through, then to be denied status as a crime victim in this 
case is just--I just really--it is just so abhorrent.
    Mr. Dodson, tell us about your personal situation. You have 
had a list of so many--at one point I think you said something 
like the list of retaliation is so long you stopped counting; 
it is almost too many pages to write, being banned from public 
buildings, things like that. You are still apparently a special 
agent with the ATF, correct?
    Mr. Dodson. Yes, sir, that's correct, although I don't 
report to the ATF. I currently report to the FBI office in 
Tucson.
    Chairman Chaffetz. Tell us about some of the retaliation 
that you and your wife and your family experience?
    Mr. Dodson. Well, again, I don't mean to dredge everything 
back up, but there were several attempts or threats to 
prosecute me criminally. There have been at least three 
Internal Affairs investigations that I was the subject of that 
I know about, and I didn't find out about those until after the 
fact. I've either been transferred or had to be transferred 11 
times, transferred or reassigned. I have been routinely locked 
out of ATF computer systems, barred from ATF workspaces. I was 
libeled by the Department of Justice. A hit piece in a major 
publication was sanctioned on me. I--it's just--it just goes on 
and on, sir. If you could ----
    Chairman Chaffetz. What did the inspector general, when 
they dove into it, what did they find?
    Mr. Dodson. I like to call the inspector general's report 
issued on Fast and Furious 512 pages of ``You should have 
listened to John Dodson'' because it pretty much substantiates 
every allegation, everything that I said was occurring.
    Chairman Chaffetz. Do you know how long they conducted this 
investigation? How many times did they interview you, that sort 
of thing?
    Mr. Dodson. I interviewed initially once in Arizona and 
then they interviewed me again here in D.C. on the actual Fast 
and Furious investigation. I want to say that it began in maybe 
January of 2011, and I think the report was issued September of 
2012 if that sounds right.
    At one point I was involved in including Fast and Furious 
six OIG investigations, five of which I was the victim of some 
form of retaliation or another on. And if I'm correct, two of 
those have yet to be completed or resolved by the OIG.
    Chairman Chaffetz. And how many times have you been given a 
raise over the last seven years?
    Mr. Dodson. I only get the annual COLA adjustment that all 
Federal employees get, sir, the cost of living.
    Chairman Chaffetz. So you have had no other promotion?
    Mr. Dodson. Maybe a mandatory step, you know, I'm a 13 ----
    Chairman Chaffetz. But mandatory, no ----
    Mr. Dodson. Correct.
    Chairman Chaffetz. Yes. Again, something that we as a 
committee, both sides of the aisle, we have got to look out for 
the people that are whistleblowers here.
    And lastly, I just want to say to Mrs. Terry, God bless you 
and your family. As Mr. Gowdy was pointing out, you know, there 
are some people that run to the call, they answer the call. I 
have been in those hills and not the exact spot where your son 
was but that is tough duty, whether in the light of day or the 
blackness, the darkness, knowing that people are flowing north 
with nefarious intent to go out--oftentimes, it is amazing. You 
go out, as I have, with the Border Patrol, most of the time 
these people are going out by themselves and maybe going with 
two or three other people, maybe they are within radio shot, 
maybe not. But doing a service for this country that they are 
not, in my opinion, adequately compensated for or thanked or 
understood.
    But I can't thank you and your family and loved ones, and 
we feel for your loss. And we will continue to pursue this till 
we get to the bottom of it, and I hope that we can fully 
provide you all the answers that you deserve, as we should.
    And with that I yield back, and now will yield to Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I know that the majority has prepared a report that has 
been referred to several times today, and I just want to say a 
few things about it. When you came into this position, Mr. 
Chairman, you said that you would do things differently than in 
the past, that you would try to work on a more bipartisan basis 
when you could, and for the most part I have to say, as a 
longtime member of the committee, you have done just that and 
you should be commended for that. It is not an easy task, as 
the rest of Congress can testify to.
    For example, this committee conducted a very good 
bipartisan investigation of the Secret Service, and we issued a 
wonderful report that was adopted by every single member of the 
committee. It was unanimous. It took time to get there, but we 
got a lot of investigation, a lot of hearings, but the final 
report had so much more authority to the Secret Service and to 
the White House because it had credibility that came from 
Democrats and Republicans, and we all agreed on that.
    So, when we saw this report last night very late, it is 
more than 250 pages, of course we were disappointed because we 
never got a chance--it is really an issue that you can tell 
from the questioning today we all support the Terry family. And 
so I know this investigation began with the previous chairman, 
so maybe the committee was just deferring to him on how to 
handle this process, but it is a shame because I think the end 
report, if we had any input at all--which we have not; this is 
solely the majority's report--Democratic members who agreed 
with you were denied an opportunity to participate in this 
report, I think it would have had more force--I think on behalf 
of the Terry family I think it would have had more force if we 
had been allowed to be part of that. So that is all I have to 
say on that. And that is just for future reference.
    Chairman Chaffetz. Okay.
    Mr. Lynch. And it is not to your criticism at all. You have 
been wonderful on this, but this is a little gap that occurred. 
The other thing is we heard from Senator Grassley earlier today 
that he intended to do a letter regarding the obstruction of 
oversight, and I would just ask you, on behalf of Ranking 
Member Cummings, if you would join us to, you know, pull this 
House committee together and perhaps we could do a similar 
letter in support of the oversight. I think it would be helpful 
to ATF Agent Dodson and any others who might benefit from 
government oversight.
    Chairman Chaffetz. And I think that is the spirit in which 
we are approaching this. I just heard about this letter that 
Senator Grassley is putting together. Whether we in a 
bipartisan way join on that letter or we do our own separate 
letter, let's sort that out with staff and members here in the 
next day or two ----
    Mr. Lynch. Okay.
    Chairman Chaffetz.--because it should not go unanswered.
    Mr. Lynch. I agree.
    Chairman Chaffetz. I agree with you there.
    Mr. Lynch. Thank you.
    Chairman Chaffetz. Thank you.
    I will now recognize the gentleman from Georgia, Mr. Hice, 
for five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    And with all my colleagues here, thank each of you for 
being here and our hearts do go out--there are so many question 
marks in this whole thing, and we thank you for coming.
    Special Agent Dodson, let me go back to you. And as the 
chairman was just saying, your testimony with how you have been 
ostracized and outcast and all this kind of stuff is just 
inexcusable. You have explained even--in fact, what you just 
explained, even criminal charges, attempts for criminal 
charges, were those charges related to the whistleblowing?
    Mr. Dodson. They were partially, yes, sir, and in 
retaliation for it. They openly threatened to prosecute me with 
a violation of the grand jury 6(e) secrecy rule. They actually 
brought in an FFL in the Phoenix area and attempted to suborn 
perjury from him to indict me for witness tampering. They 
illegally transmitted classified material to me in an FBI skiff 
in Phoenix, which had neither--or I had clearance for but I had 
no need to know in the hopes of prosecuting me for either its 
mishandling or its release, and they openly and very publicly 
tried to or announced my--announced the desire to have me 
prosecuted for perjury for my original testimony here six years 
ago.
    Mr. Hice. And who is ``they''?
    Mr. Dodson. Well, sir, that's a good question. It's one of 
the ones that we could hope that this committee could 
ultimately answer one day. Some of them were members of my 
former chain of command. Others were Department of Justice 
officials.
    Mr. Hice. Okay. I want to come back to that here in just a 
few moments.
    Are you aware of others besides yourself who have suffered 
for coming forward to blow the whistle?
    Mr. Dodson. Yes, sir, many. And there are many that still 
suffer. Like I say, my story is just that; it's from me, but 
there are other agents that have attempted to blow the whistle 
or bring forth, you know, misconduct and mishandling by the 
agency, both my agency and other agencies, but they are still, 
you know, in turmoil. They're still just getting chewed up in 
the gears of government. And it's this cultural aspect of it, 
this bureaucracy and the size of the entities that they are 
that keeps a lot of them from ever being heard, that prevents 
them from getting the, you know, opportunities like I have 
here.
    And this is one of the reasons that I don't take this 
lightly at all. I can't tell you--we could fill this room and 
several more just like it with other people that have been 
through situations similar that I have that have a story to 
tell, and it's just as important. And it's happening to them 
every day.
    Mr. Hice. And we don't take it lightly either. So you would 
say that there are obviously many people who, for fear of the 
retaliation, are not going to blow the whistle because they 
have seen what has happened to you and others. Would you agree 
with that?
    Mr. Dodson. Yes, sir. And I can say I don't feel that 
anything in any way how ATF or the Department of Justice 
handled me or my situation would give anyone the idea that 
whistleblowing is a favorable activity.
    Mr. Hice. Okay. So those who have been involved in 
whistleblower retaliation, are they still at the ATF?
    Mr. Dodson. Yes, sir. There are a number of them.
    Mr. Hice. Okay. Can you give us some names?
    Mr. Dodson. I--could I provide that in another format, sir?
    Mr. Hice. Yes.
    Mr. Dodson. Okay.
    Mr. Hice. Do you know Bill Newell?
    Mr. Dodson. Yes, sir. He was my former special agent in 
charge.
    Mr. Hice. Do you know where he is today?
    Mr. Dodson. My understanding, he is assigned to the Salt 
Lake City office.
    Mr. Hice. All right. So still with ATF? Has he received 
promotions?
    Mr. Dodson. I cannot say, sir.
    Mr. Hice. Do you know Dave Voth?
    Mr. Dodson. He was my former supervisor on the Strike Force 
in Phoenix, yes, sir.
    Mr. Hice. And where is he today?
    Mr. Dodson. I believe he is in Minnesota.
    Mr. Hice. Hope MacAllister?
    Mr. Dodson. Yes, sir. She was the case agent involved in 
Fast and Furious.
    Mr. Hice. And where is she?
    Mr. Dodson. She's still in Phoenix.
    Mr. Hice. Do you know that the ATF's Professional Review 
Board recommended that Newell be fired and that both Voth and 
MacAllister be disciplined?
    Mr. Dodson. I had heard that, yes, sir. I don't know it 
firsthand but I'm aware of that.
    Mr. Hice. Are you aware of any discipline that--obviously 
Newell was not fired. He is still working.
    Mr. Dodson. That's to my understanding, yes, sir.
    Mr. Hice. Would you provide a list of others who are 
involved in this?
    Mr. Dodson. I can, yes, sir.
    Mr. Hice. Mr. Chairman, I think it is part of our 
responsibility to find out why Mr. Newell was not fired and 
whether or not there was any discipline directed towards Voth 
or MacAllister and if not, why not. I think these people and 
others that Special Agent Dodson will provide for us need to be 
held accountable to the full extent. And I would just ask, Mr. 
Chairman, that we follow this as closely as we can and we see 
to it that justice is done and that those who are responsible 
for this are held accountable.
    And I yield back.
    Mr. Palmer. [Presiding] I thank the gentleman.
    I will now recognize myself for five minutes for some 
questions.
    And I am going to cover a little different territory, Agent 
Dodson. Obviously, the goal was to trace these firearms once 
they entered into Mexico, and a number of them were recovered 
at crime scenes. Were any of the firearms actually traced to a 
crime scene?
    Mr. Dodson. Yes, sir, several of the firearms, a number of 
which were recovered at crime scenes in Mexico and some on this 
side of the border. And you have to understand the tracing 
aspect that you're referring to to trace these firearms, that--
the definition of that is letting them be purchased or actually 
facilitating it, allowing it to happen, and going home and 
waiting for the crime to occur where they're recovered and 
ultimately submitted back to the tracing system.
    What happened in the interim we had no idea bout. There was 
no full-time surveillance. There was nothing that rendered 
those weapons, you know, unfireable or nonoperable. And I've 
pointed this out before, that one of the most striking things 
in all of this is we're only going to recover that weapon in 
the last crime that it's used in, right? How many violent 
incidences occurred with, you know, utilizing that firearm 
between the time it was purchased and the time it was 
ultimately recovered and traced we have no measure of at all.
    Mr. Palmer. I ask that question because there were two 
particularly egregious incidences where weapons traced back to 
Fast and Furious were used in crimes. One was September 2, 
2009, in which 18 people were killed in Juarez, Mexico, and 
another one was January 30, 2010, at a birthday party, about 60 
teenagers. They killed 14, wounded I don't know how many, shot 
a lady down, a neighbor, and a couple other young people. And 
the weapons used there included weapons from Fast and Furious. 
Are you aware of that?
    Mr. Dodson. Yes, sir, I am. And also, I'm aware of several 
other incidents where they were recovered. But what I think is 
important to point out is that DOJ and ATF have refused to 
provide the entirety of that information. These are the crimes, 
the atrocities that we know of. How many are there that we 
don't of that were recovered and a firearm was traced back to 
this program? That information has never been fully provided to 
this committee.
    Mr. Palmer. That is murder, mayhem on a massive scale ----
    Mr. Dodson. It's on a very large scale.
    Mr. Palmer.--Agent Dodson.
    Mr. Dodson. Yes, sir.
    Mr. Palmer. And obviously, Ms. Terry, we are here about 
Brian. Both of these crimes, these murders of these 32 people 
occurred before your son was murdered. And as far as I know--I 
wasn't in Congress at the time. I came in 2015; I was elected 
in 2014. As far as I know, the committee--unless somebody else 
has information about this, I don't think this committee knew 
about it. And I am going to take this a little bit farther. It 
just seems the height of hypocrisy, first of all, for the 
previous administration to interfere with the investigation and 
the truth regarding Border Patrol Agent Brian Terry and his 
family, and we owe that to you, but also to have been 
signatories to a United Nations treaty banning the 
proliferation of small arms. And at the very time they were 
trying to push this through Congress, they were trafficking 
arms into Mexico.
    Agent Dodson, are you aware of any weapons from Fast and 
Furious or other ATF operations that entered other countries 
besides Mexico?
    Mr. Dodson. No, sir, I'm not for sure if other countries 
were involved, but I know that this strategy, as it was run out 
of the Phoenix office, was referred to as the Phoenix strategy. 
And it was being exported to all the field divisions along the 
southwest border. This was the golden plan for how--and this is 
what it boils down to--to combat illegal firearms trafficking 
by illegally trafficking firearms was the model that was going 
to be in place. So, Fast and Furious was one case from one 
office in one field division. What ----
    Mr. Palmer. But there were other operations being run out 
of other offices, though, weren't there ----
    Mr. Dodson. Yes, sir.
    Mr. Palmer.--that involved Colombia and Honduras and 
Venezuela.
    Mr. Dodson. I cannot say for sure, but I've heard things to 
that effect, yes, sir.
    Mr. Palmer. Do we know if the weapon that was used to 
murder ATF agent Jaime Zapata was a weapon that came through 
Fast and Furious?
    Mr. Dodson. Yes, sir. That's been concluded that the 
firearm used in the murder of Agent Zapata was traced back to 
the Fast and Furious program. It's my understanding.
    Mr. Palmer. As tragic as the death of Border Patrol Agent 
Brian Terry is, the deaths of so many other people, not 
citizens of the United States, as a result of having access to 
firearms provided by an agency of the United States, the fact 
that that is not bigger news, that that is not a scandal is 
stunning. I think we owe it to the Terry family, but we also 
owe it to the American people to get to the bottom of this.
    With that, now, I will recognize the gentleman from 
Oklahoma, Mr. Russell, for five minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And, Mrs. Terry, thank you for being here today. It is 
important that we always put a human face back on these issues, 
and you not only help remind us of the honor of Special Agent 
Terry and his sacrifices but also our responsibility to make 
sure that the honor of everyone else remains intact in this 
process. And keep up the fight. There are a great many of us 
here that intend to keep it up with you, and so I thank you for 
your presence here today.
    Agent Dodson, you had mentioned in the comments and 
questions from Representative Gowdy that the strategy made no 
sense, and I would certainly agree with that, that as a former 
drug enforcement officer, you would never walk drugs. We would 
never see a situation where firearms would walk. And as the 
chairman has alluded to and even stated, what would be behind 
this and what were the causes of it?
    My instincts tell me that, much like planting a gun at a 
crime scene to try to affect an outcome that really isn't the 
real story, the administration at the time seems set on 
planting an idea that firearms from the United States and their 
seemingly unregulated flow and ease of purchase were posing a 
danger to the drug war and border security as a whole. This in 
turn would set conditions to manipulate public opinion to 
restrict firearms ownership and their purchase by American 
citizens.
    I think that is the real story that unfortunately so many 
have been caught up in to include you, your service, Agent 
Terry, Agent Zapata, others that were caught up in this, not to 
mention Mexican citizens and children that were gunned down. 
That is the egregious thing. That is why where is so much 
protection of this even to this day, that the United States of 
America would try to manipulate through walking of guns and 
planting in essence a gun at a crime scene to go after 
something else.
    And I understand your difficulty, and in fact you strike me 
as not only a very dutiful man but a humble man, and you are 
not here to finger-point, and I appreciate that. Having served 
over two decades in uniform myself, I understand that. But you 
have an opportunity also to help us get at who should be held 
accountable. The honor of Agent Terry is intact. Nothing will 
ever change that. But the honor of the family and by extension 
of the ATF and its reputation as a whole is not intact because 
the family is not being treated as the victims that you clearly 
are, and at the same time, the ATF comes under continued 
suspicion. With good accounting, then, you know, all the way 
back to the first decade in the 1800s when we decided to do 
oversight, this is exactly the type of thing that American 
citizens expect that we do.
    And so, in your view are there people clearly accountable 
for these actions? You don't have to name them here, but are 
there people clearly accountable that you could name that would 
help us restore that honor not only to the agency but to 
American citizens and their government?
    Mr. Dodson. To answer your question, sir, yes, there are 
some individuals that I feel are clearly accountable for both 
the flawed and dangerous strategy known as Fast and Furious, as 
well as the attempts by the United States Government to cover 
it up, as well as for direct acts of reprisal and retaliation 
against me.
    However, given my position on this totem pole of leadership 
being, you know, at the subterranean level, that knowledge of 
mine only goes so far. It is incumbent upon this committee and 
its members to be able to ferret out that information from 
those echelons above John Dodson who, at those levels, are 
responsible and needs to bear that burden and those 
responsibilities. Again, my spectrum of knowledge in this is 
only to a certain level.
    Mr. Russell. And I get that, I do. But I also know, having 
been, you know, a former commander in a different life, that 
sometimes a soldier going to an IG can open up a whole basket 
of things. And we have seen an opportunity for that here where 
we have seen a Justice Department that clearly lied, put out a 
letter that they knew to be false for reasons that are still as 
yet to be determined. But again, I stated what my own instincts 
are on it and why those decisions were made seemingly very 
coincidentally timely with the expiration of the 10-year ban on 
so-called assault firearms, lots of coincidences there.
    But if you would work with us to help us, as Representative 
Hice had also asked, we need that help. We have to be able to 
continue to dig. And maybe it is that the people that we are 
able to query and we are able to ask, it turns out that they 
are able to help us even further. It may not be them at all, 
but it could lead to other things. We have to get to the bottom 
of this.
    And, Agent Heyer, would you care to speak along this line 
also?
    Mr. Heyer. Congressman, your intuition is right on. You 
know, this entire operation, as it was conceived, was 
counterintuitive to what we--my 26 years in law enforcement and 
what agents like John have dedicated their lives to. It was a 
total disregard for public safety. It continues. The weapons of 
this operation continue to present a clear and present danger 
to law enforcement on both sides of the border. You know, we 
even saw through emails obtained by this committee, ATF agents, 
supervisors in the Phoenix Field Division celebrating when 
weapons from the operation were found at crime scenes in 
Mexico, insane.
    Mr. Russell. Absolutely insane.
    Mr. Heyer. You know, the--you asked earlier about those 
truly responsible who they--these individuals are. I think that 
the OIG's investigation into Operation Fast and Furious, along 
with the previous two reports written by this committee, 
indicate exactly who those individuals are. The fact of the 
matter was--is no one was held accountable. And that's the true 
pain and the truly egregious part of all this. Those DOJ 
officials in the prior administration have moved on. They are 
now in high-paying jobs in the private sector. The U.S. 
attorney in Arizona has moved on without ever being held 
accountable. Those senior ATF officials in headquarters were 
allowed to retire and move on without being held accountable.
    And just as you learned, the agents on the ground level 
responsible for Operation Fast and Furious were allowed to take 
downgrades and move to their hometowns and move to other parts 
of the country, and the case agent was allowed to remain right 
in Tucson and continue in her job while the whistleblowers 
continue not to look at being considered for promotion and get 
on with their lives. So that continues to be a truly egregious 
behavior, a part of ATF and upon DOJ as a whole in the 
aftermath of Brian Terry's death.
    Mr. Russell. Well, and I thank you for that.
    And thank you, Mr. Chairman.
    And while Agent Terry and Agent Zapata and others, their 
honor is certainly intact, one thing we can do is to make sure 
that those that were not held accountable, that their honor 
will go down in history tainted because it deserves to be so 
because of the sacrifices made by honorable agents such as 
Agent Dodson, yourself, Agent Zapata, and Agent Terry.
    And thank you, Mr. Chairman. I yield back.
    Mr. Palmer. Just to clarify and, Agent Dodson, I really 
appreciate your testimony, but I want to clarify that we are 
grateful for the recent Department of Justice and OIG report, 
which in February released its conclusions that the firearms 
recovered at the scene of Jaime Zapata's murder--and by the 
way, he was an Immigration and Customs Enforcement Agent--were 
purchased by individuals at ATF and the DEA should have been 
investigating and confronting. And it had similarities to Fast 
and Furious, but they were not ultimately connected to Fast and 
Furious. But with that, again, I want to thank you for your 
testimony and work that you have done. And you have served with 
honor and what you are doing right now, again, indicates that.
    With that, I will recognize the gentleman from California, 
Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And, first, 
obviously, Mrs. Terry and Agent Heyer, there is nothing any of 
us can say really but to offer our continued respect and 
condolences for your loss and your efforts to make sure that 
that loss leads to something better and make sure that another 
family will ever have to go through that.
    After a yearlong investigation by Ranking Member Cummings, 
we issued a staff report in 2012 that found that ATF's 
misguided gunwalking operations originated in 2006 as a 
strategy at ATF's Phoenix Field Division. The report stated, 
and I quote, ``Although these officials claim that they had no 
probable cause to arrest any straw purchasers at the time, 
allowing hundreds of illegally purchased military-grade assault 
weapons to fall into the hands of violent drug cartels over the 
course of five years and created an obvious and inexcusable 
threat to public safety on both sides of the border, we now 
know that the IG has said we have fulfilled or the Department 
has fulfilled its recommendations.
    But following on the questions from my friend from Oklahoma 
and your comments, Agent Heyer, and starting with your, Mr. 
Dodson, we get to a larger I think endemic problem maybe 
culturally and within these institutions where even Congress 
having these multiple hearings, there seems to be--and Agent 
Heyer, you sort of hit at this--is that there--part of the 
culture is that we will just endure this and there won't be 
repercussions. So, the real question is do you think we have 
done enough to change the culture so this won't happen again?
    Mr. Heyer. Congressman, I'd say this goes beyond culture. 
It's doing what's right. It's being honest. We're sworn as 
Federal agents. I took the oath. You as a Congressman have 
taken the oath. Part of the oath is to do the right thing. And 
there are so many examples of officials in ATF, the Department 
of Justice, and U.S. Attorney's Office that were involved in 
Operation Fast and Furious that did not do the right thing, 
especially after Brian Terry's murder. That's the egregious 
part. And it goes beyond culture. It's basic integrity, and 
that's what was lacking by so many.
    Mr. DeSaulnier. So, that brings up the obvious concern is 
even if we continue to have these hearings and future 
Congresses have these hearings, the problem may go away for a 
while, but if we haven't got at the culture of honesty for lack 
of a better expression--and this is not just for ATF. We 
certainly have it in our political culture. I always think of 
President Lincoln saying that he had to do what he did because 
that oath he took was registered in Heaven, and in those days 
there seemed to be, even with all their problems and civil war, 
there seemed to be some connection by a principal group of 
people within this institution and others that we would adhere 
to that honesty level.
    So, the question really is have we gotten to that where 
there are enough people who believe in the honesty within ATF 
that this will not happen again?
    Mr. Dodson. Sir, I wish that I could tell you that it will 
never happen again or I even think that it's at a point where 
it won't happen again. Nobody would have liked to come here 
today and tell you more than I that in the past six years since 
the last time I was here things have been great, I've seen a 
huge change and they're really, you know, working hard to fix 
the problem. I unfortunately can't tell you that. And I think 
that even though this body, all that it had done up until this 
point, that the culture that is still there still remains.
    And there's two prongs to this problem. One of those are 
those people who actually took overt acts to try and cover 
stuff up to try and retaliate or to try and spearhead this kind 
of operation. There are those people with those malice of 
intent. Then behind them and where they're able to operate and 
get things done is within the culture and the bureaucracy.
    Now, those people that did those overt acts that actively, 
you know, perpetrated those things may be gone. Some of them I 
know are. Others I'm not so confident of. But the culture is 
still there, and it's still ripe to do it again. I believe--and 
until there is genuine change in that, in how we function as a 
government and hold each other accountable and we are held 
accountable to the people of this country, that there will be 
another Fast and Furious. It will only be under another name. 
It will happen with another agency, and it may involve another 
commodity. But as long as this bureaucracy, those wheels are 
allowed to turn and grind through everyone the way that they 
do, even with all that you've done and all your efforts, I 
don't think you've put a dent in it.
    Mr. DeSaulnier. And I think therein lies the problem. 
Unless there are consequences in any field, the generations 
that come behind them, even though the rules have changed, 
don't see that there are consequences for bad behavior, and 
that is just human nature.
    Thank you, Mr. Chairman. I'll yield back.
    Mr. Palmer. I thank the gentleman.
    The chair recognizes the gentleman from North Carolina, Mr. 
Walker, for five minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Ms. Terry, it is a privilege to get a chance to meet you in 
person today. You know, it is not just Brian, as much as a hero 
that he was and is, you--and that goes for Kelly your daughter 
as well--even living miles apart I can only imagine the 
expense, the toil that has been on your family, but you have 
kept his flame burning bright. It has flickered a few times, 
but I think it is glowing as bright as it has ever been. Thank 
you and Mr. Heyer and all those who have just bulldogged this 
thing where you refuse--Special Agent Dodson as well--that you 
refuse to allow injustice to continue to permeate, even in the 
halls of this government. And so I am grateful for that. I 
appreciate that.
    I am saddened that the former administration, President 
Obama included, would work so hard with executive privilege to 
keep many of these documents sealed, whether it was either for 
the incompetence of the Department of Justice, who did not even 
think about or refuse to allow our Mexican counterparts in law 
enforcement know that we are providing automatic weapons and 
such to drug cartels would be something that most of us would 
look at, as far as a commonsense standpoint, I just feel like 
the previous Department of Justice owes more to the American 
people but specifically to the Terry family and these many 
other families who have gone through such tragic loss. But it 
goes without saying that what you are doing continues to 
celebrate the life of your son, and I think that you are 
willing, you and your family, to carry what it sometimes I can 
only imagine is quite a heavy load.
    I have got a couple questions, just real short. I probably 
won't even use the full component of my time. But Special Agent 
Dodson, is there anything Congress can do to help 
whistleblowers come forward to expose failings like Fast and 
Furious, if you could say here is one or two things that I 
would recommend, having gone through this journey, here is what 
Congress could do to help?
    Mr. Dodson. Sir, I think there's a lot that could be done, 
but it's going to be like a pretty long and hard road. It's--
but you guys are already doing a lot. I want you to understand 
that. Please don't take anything I say away from that. The fact 
that people know that there are bodies, there are committees 
like this with staffers like you guys have here that, you know, 
Tristan and Castor that I know personally and I'm sure there 
are others, but as long as they know that there is a place 
where they can come where people do care, where they have a 
voice, you know, in this government and they can--there are 
avenues in place and things, certain protections that can be 
afforded to them, that's already huge.
    Now, what you can do to make it better and make it more 
expanded and to get more people to come in, I don't know. I 
mean, it's all part of the mission I guess is how do you get 
the word to these people.
    Mr. Walker. Right.
    Mr. Dodson. And I help you do that. I tell people that I 
talk to are those--people have contacted me both officially and 
unofficially and asked for my experience and what I've gone 
through, there's two things that I want through what I went 
through, to help the Terrys get the answers that they deserve 
and to help other whistleblowers that find themselves in a 
situation ----
    Mr. Walker. Sure.
    Mr. Dodson.--like I did in the future.
    Mr. Walker. Can I ask you a personal question?
    Mr. Dodson. Yes, sir.
    Mr. Walker. Do you regret coming forward?
    Mr. Dodson. Do I regret--no, sir. It's--I don't regret 
coming forward at all. I just did my job. I did what I thought 
I was supposed to, what was expected of me. How do you have 
regret for that?
    Mr. Walker. Sure. Well, then let me follow up with this 
question. If there is anything that you could do differently, 
looking back, if you started this process from the beginning, 
what would you do differently?
    Mr. Dodson. Well, sir, given the--given what I know now and 
the current political climate, I would maybe look for a way to 
blame it on the Russians because that would guarantee 
bipartisan and it would get the major news media looking into 
it asking the hard questions.
    But absent of that, I would say, look, I didn't do 
everything right. I made some mistakes. I made some decisions 
out of fear and anger because there were times that I was very 
scared and times that I was very upset. Some of those things I 
would do differently. But because I was fortunate enough to 
land somehow with Senator Grassley's staffers at that time and 
ultimately over here on the committee, they guided me and 
helped me and it was--I mean, it was immeasurable. I can never 
thank them enough ----
    Mr. Walker. Sure.
    Mr. Dodson.--for everything.
    Mr. Walker. Not to any scale which you have done, but there 
was a time in my life where I told the truth and it cost me 
something, not to what it has cost you, but I just want to 
encourage you today that when you do the right thing, it may 
take a while, may even take a few years, but when you do the 
right thing, eventually, it is honored. So, thank you again for 
your willingness to be able to carry this load. Again to Mr. 
Heyer, Ms. Terry, Kelly, thank you all for being here. It's a 
privilege to get a chance to be in a hearing with you folks.
    With that, I yield back.
    Mr. Palmer. I thank the gentleman.
    The chair now recognizes the gentleman from Virginia, Mr. 
Connolly, for five minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And let me extend my 
welcome and ongoing condolences to the Terry family and Mrs. 
Terry in particular and Mr. Heyer representing the family. It 
is a terrible thing when we lose somebody in the service of 
their country, and on a bipartisan basis, we very much 
understand I think and appreciate your loss as best we can.
    I do want to say, Mr. Chairman, that if there is one thing 
in terms of process that ought to unite us, it is in opposition 
to this avowed policy coming out of the Trump White House that 
they will respond to oversight requests only if they are signed 
by a Republican Member and in some cases chairman of the 
subcommittee or the full committee. Had President Obama had 
that policy, we would still be hearing about it.
    And I will say this. If that policy is allowed to stand, it 
invites a similar policy when tables are turned. And that is 
not good for the ----
    Mr. Palmer. If the gentleman will yield?
    Mr. Connolly. Of course.
    Mr. Palmer. There was a colloquy between Chairman Chaffetz 
and Ranking Member Lynch in which we are in agreement, sir.
    Mr. Connolly. Yes. I ----
    Mr. Palmer. I yield back.
    Mr. Connolly. Thank you, Mr. Chairman. I did hear that 
colloquy, and I also heard Senator Grassley express his 
disapproval as well, and I commend that. I just want to get on 
the record, though, what I think are the profound consequences 
if that policy is not quickly overturned.
    Mr. Palmer. I thank the gentleman. I think there is a 
discussion about a letter from the committee as well.
    Mr. Connolly. Great.
    Mr. Palmer. I yield back.
    Mr. Connolly. And I pray it will be bipartisan because 
however conservative, however liberal, however middle of the 
road any of us may be, all of us institutionally have a stake 
in that. And that is just a mistake. I hope, I want to believe 
it is by a rookie White House that doesn't fully understand how 
the legislative branch functions and constitutionally has a 
function.
    Mr. Palmer. I thank the gentleman. Points are valid and 
very important and I appreciate him making that for the record.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Dodson, do you consider yourself a whistleblower?
    Mr. Dodson. I use that term to describe myself sometimes in 
what I did only because I lack another term to describe it. I--
like I say, I consider what I did just my job, sir. I did what 
I thought was expected of me, what I thought my oath, you know, 
entitled--or made me do and what my duty was.
    Mr. Connolly. Did you feel any pattern of retaliation based 
on what you did?
    Mr. Dodson. Yes, sir.
    Mr. Connolly. And was that retaliation limited to the 
office in Phoenix or elsewhere?
    Mr. Dodson. No, sir. It was not limited to the office of 
Phoenix, and at times it felt--and I believe it came from the 
highest levels of the Department of Justice.
    Mr. Connolly. And unfortunately, we don't have anyone from 
the Department of Justice here today. It would be interesting 
to hear from them.
    Mr. Dodson. There are several of them that I would like to 
talk to ----
    Mr. Connolly. Yes.
    Mr. Dodson.--myself, sir, yes.
    Mr. Connolly. Yes, I can only imagine. So, how did you find 
yourself protected? If you don't mind, let's call you for a 
minute a whistleblower ----
    Mr. Dodson. Yes, sir.
    Mr. Connolly.--for the purposes--because our committee 
cares a lot about whistleblowers, again, on a bipartisan basis. 
We care a lot about whistleblower protection legislation, and 
so we want to learn from your experience, which I think is 
terribly instructive here. How did you manage to withstand that 
retaliation and remain a special agent with ATF?
    Mr. Dodson. Well, sir, it was partially because of the air 
cover that I got from Senator Grassley and his staff, as well 
as from the committee staff and the committee itself. But you 
learn pretty quickly that that can only go so far. Those 
letters that can be fired off to DOJ or to your agency, 
although they can bring attention to it and put things on 
notice, when the--you know, in the works of it, it's--there's 
not a lot of teeth there.
    And you think--I always thought before this--you hear talk 
of people who have blown the whistle and they have a 
whistleblower card. And you're taught that those people are 
untouchable, you know, that their agency can't do anything to 
them; they can essentially do whatever they want and they can't 
be fired. It's not until you find yourself in that situation 
and you realize that that card doesn't make you untouchable; it 
makes you unapproachable. And it's those things that the agency 
and the Department have done--like I say, all the overt things, 
the ways that they tried to come after me, trying to prosecute 
me, trying to smear me, to, you know, everything that they have 
said, the lies they've told about me, the Internal Affairs 
investigations, those things are tangible. Those are things 
that you can combat, you can overcome. It's that alienation, 
that ostracization that you can't. When people simply won't 
talk to you, won't work with you, won't deal with you, you 
cannot make them. You can't force that issue, and you're on 
your own.
    Mr. Connolly. Yes. And I think one of the things implied in 
what you just said, too, is you have the intestinal fortitude 
to stand up to that and fight back. Not everybody has that kind 
of stamina or constitutional makeup and so they can become 
victims of that kind of retaliation even though they were 
trying to do the right thing. And I think we would welcome your 
reflections on--you had the protection of a Member of Congress, 
and that is good, but that is not going to be available to 
everybody in various and sundry circumstances. So, the question 
is how can we create a legislative framework that protects 
people who want to do the right thing even if it is unpopular 
within their agency and division?
    My time is up, and I thank you very much for your 
testimony.
    Thank you, Mr. Chairman.
    Mr. Palmer. I thank the gentleman.
    The chair now recognizes the gentleman from Wisconsin, Mr. 
Grothman, for five minutes.
    Mr. Grothman. Yes, we really haven't gotten into a lot how 
this happened in the first place or what the motive would be 
for the U.S. Government to try to get United States automatic 
weapons in the hands of Mexican drug cartels. And it is very 
horrible what happened to Brian Terry. I would suppose, given 
the zeal with which they were pursuing this, I suppose there 
are a variety of Mexican individuals who wound up--unknown 
Mexican individuals who wound up being killed today as a result 
of the actions of the United States Government. Do you think 
that is accurate, say, Mr. Heyer?
    Mr. Heyer. I think that's a fair assumption.
    Mr. Grothman. Has the Obama administration or anybody 
connected with that administration apologized to the Mexican 
Government for trying to get automatic weapons down to the 
Mexican drug cartels as far as you are aware?
    Mr. Heyer. Not that I'm aware of.
    Mr. Grothman. Oh, my goodness. Well, somebody ought to 
apologize to them. Do you know, because you have followed this 
as much as anybody, Mr. Heyer, what would be the motivation try 
to get American automatic weapons in the hands of drug cartels? 
Why was it in--why did some people in the American Government 
think it was in our interest to make sure the Mexican drug 
cartels were armed to the teeth?
    Mr. Heyer. Well, as I understand it, there were different 
ideas. From the Phoenix Field Division, their goal as I 
understand it were to ultimately be able to take down a Mexican 
drug cartel, the leadership of the cartel. How that was 
supposed to happen I really don't know. All we knew was the 
first part, they were going to let weapons walk to straw buyers 
working for the cartel.
    In the bigger picture, with respect to the previous 
administration, I don't know. Was it to build some sort of 
apprehension to automatic weapons, to strengthen gun laws? I 
don't know.
    Mr. Grothman. Yes, I mean, people out there throw around 
the idea that the hatred of the Second Amendment was so great 
in the prior administration that they wanted, you know, people 
killed with--or people--they wanted to look like we had a 
crisis of automatic weapons here in the United States.
    Now, Eric Holder certainly was not very helpful to this 
group. We held him in contempt in Congress. Could you just in 
general give us your opinion of the degree to which Eric Holder 
tried to help this investigation and the degree to which he 
tried to stand in the way of finding out what was really going 
on here?
    Mr. Heyer. Well, I spoke earlier about frustration in every 
aspect in dealing with the Department of Justice, and that 
continued not only with Eric Holder but his predecessor. 
Letters went unanswered, requests for information went 
unanswered, and, again ----
    Mr. Grothman. So, it appears that he really didn't want to 
get to the bottom? He was willing to cover up?
    Mr. Heyer. Well, when it came to the Terry family, I 
believe they saw us as a nuisance.
    Mr. Grothman. Okay. Okay. I mean, you know, I would think 
most people if they were President, you know, then they would 
get involved and say, hey, I got, you know, a real problem 
here. Did you see the Obama administration step up and do 
anything about this?
    Mr. Heyer. Again ----
    Mr. Grothman. Nothing?
    Mr. Heyer.--you know, we really felt like we were on our 
own, and with the exception of this committee and the--really, 
really providing the only information beyond what journalists 
were providing ----
    Mr. Grothman. Okay.
    Mr. Heyer.--that was our sole source of accurate 
information with regard to Brian's death and the circumstances 
around his death.
    Mr. Grothman. Okay. Now, we should see what happened to 
Eric Holder here. I was just kind of Googling him, and maybe 
you know what is going on. It looks like after he left public 
service, he was rewarded by working at Covington and Burling, a 
very, you know, top-of-the-line--I don't know what his 
compensation is there--but top-of-the-line kind of liberal-
leaning law firm here in Washington. Does that bother you when 
you see people like Special Agent Dodson, his career kind of 
stalls because he cares about the people and cares about the 
future of this country, but somebody who, you know, gets in the 
way of this investigation, such a big problem is rewarded by 
the left-leaning establishment here in town by getting a job 
with a big law firm?
    Mr. Heyer. Well, it's not only just the rewards; it was the 
lack of accountability. And I spoke earlier today about the 
numerous officials that were allowed to leave their positions 
within top DOJ positions that were able to leave and move into 
the private sector, just like Lanny Breuer, just like Eric 
Holder. It was the lack of holding individuals accountable like 
those senior ATF headquarter individuals that were allowed to 
retire with full pensions.
    Mr. Grothman. Okay. Just one other thing. I know I'm a 
little bit over. I just hope this committee and whoever the new 
committee chairman is does what they can to make sure this is 
written in the history books. You know, sometimes, you know, 
they say the winners write the history books, and sometimes 
horrific things happen and they just disappear into the ether 
and future generations will never know about it. I mean, to me, 
the Fast and Furious scandal, this should be something, you 
know, actually worse than Teapot Dome. I mean, you know, this 
should be one of the greatest scandals in American history, and 
I hope this committee does all they can so that people in the 
future always know the name of Eric Holder and know how little 
was done by this administration after they participated, for 
whatever motivation, in trying to get automatic weapons in the 
hands of the drug cartels.
    I would like to thank you, Mrs. Terry, for showing up.
    I would like to thank you, Special Agent Dodson. I mean, 
you know, I know you are, I am sure, financially not as well 
off as you would be if you had just, you know, kept your head 
down and shut up and da, da, da, da, da, but of course I am 
sure your reward is greater because you know you are on the 
side of the angels as opposed to a lot of those other people 
who are just grabbing the cash. Thanks much.
    Mr. Palmer. I thank the gentleman.
    I would like to thank our witnesses for taking time to 
appear before us today, and particularly you, all three of you. 
You were here six years ago.
    Ms. Terry, your strength and stamina and your commitment to 
your son's memory and seeking justice for him is inspiring. We 
continue to grieve with you, but at the same time, I want you 
to know that we deeply appreciate the service of Brian Terry 
and how you have honored that service. And in holding this 
hearing, I hope at some point that you will feel like he has 
been honored by the United States Government.
    Mr. Heyer, I appreciate your coming again and Mr. Dodson, 
Agent Dodson, for your testimony and your diligence in trying 
to shed light on some problems that should have been resolved, 
frankly, years ago.
    If there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
